App. 1
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 17-3480
-----------------------------------------------------------------------

KAREEM GARRETT,
Appellant
v.
WEXFORD HEALTH; DR. NAJI MUHAMMAD, Medical
Director; DEBRA YOUNKIN, Corrections Health
Administrator Nurse; JANET PEARSON, Nurse
Supervisor; DEB CUTSHALL, PHS Administrator;
DR. KATHRI, Psychologist; STEVEN GLUNT; P.A.
PHYSICIAN JOE; P.A. PHYSICIAN CASEY; NURSE
LORI; NURSE DEBBIE; NURSE RODGER; NURSE
JOHN; NURSE HANNA; SUPERINTENDENT K.
CAMERON; DEPUTY SUPERINTENDENT DAVID
CLOSE; DEPUTY SUPERINTENDENT (SECURITY)
K. HOLLINBAUGH; DORETTA CHENCHARICK,
Grievance Coordinator/Superintendent’s Assistant;
JOEL BARROWS, Major of Unit Managers; JAMES
MORRIS, Major of the Guard; PEGGY BAUCHMAN,
Business Manager; TRACEY HAMER, Personnel
Officer; CAPTAIN BRUMBAUGH; CAPTAIN
MILLER; LT. SHEA, Security Lieutenant;
LT. HORTON; Security Lieutenant; LT. LEWIS,
Training Lieutenant; LT. GLASS; L.S. KERNS-BARR,
Hearing Examiners/Committee; F. NUNEZ; JACK
WALMER, Licensed Psychology Manager; PROGRAM

App. 2
REVIEW COMMITTEE (PRC); M.J. BARBER, Unit
Manager, “F” Unit; MR. SHETLER, Unit Manager, “C”
Unit; MS. COGAN, Corrections Counselor, “F” Unit;
MR. LITTLE, Corrections Counselor, “C” Unit; SGT.
SNIPES, Block Sergeant “F” Unit; SGT. JAMES, Block
Sergeant “F” Unit; SGT. YOUNG, Block Sergeant “F”
Unit; MEDICAL OFFICER LONDON; MEDICAL
OFFICER OWENS; OFFICER GARVEY, R.H.U. L-5
Security; OFFICER UNCLES, R.H.U. L-5 Security
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the Western District of Pennsylvania
District Court No. 3-14-cv-00031
District Judge: The Honorable Kim R. Gibson
Argued June 26, 2019
Before: SMITH, Chief Judge, CHAGARES
and GREENAWAY, JR., Circuit Judges
(Filed: September 10, 2019)
Justin Berg
University of Pennsylvania
School of Law
3400 Chestnut Street
Philadelphia, PA 19104
Stuart T. Steinberg
Cory A. Ward
Dechert LLP
2929 Arch Street
18th Floor, Cira Centre
Philadelphia, PA 19104
Counsel for Appellant

[ARGUED]

App. 3
Samuel H. Foreman
[ARGUED]
Benjamin M. Lombard
Weber Gallagher Simpson Stapleton
Fires & Newby
Four PPG Place
5th Floor
Pittsburgh, PA 15222
Counsel for Appellees Naji, Cutshall, Nagel,
Thornley, and Wexford Health Sources, Inc.
Mary L. Friedline
Kemal A. Mericli
[ARGUED]
Daniel B. Mullen
Office of Attorney General of Pennsylvania
1251 Waterfront Place
Pittsburgh, PA 15222
Counsel for Appellee Younkin
Cassidy L. Neal
[ARGUED]
Matis Baum & O’Connor
912 Fort Duquesne Boulevard
Pittsburgh, PA 15222
Counsel for Appellee Kahtri
-----------------------------------------------------------------------

OPINION OF THE COURT
-----------------------------------------------------------------------

SMITH, Chief Judge.
Kareem Garrett sued prison officials claiming that
they were deliberately indifferent to his serious medical needs and that they retaliated against him. The
District Court dismissed many of Garrett’s claims for
failure to fully exhaust administrative remedies pursuant to the Prison Litigation Reform Act (PLRA), 42

App. 4
U.S.C. § 1997e(a), and dismissed the remainder of his
claims for failure to satisfy the “short and plain statement” requirement of Rule 8 of the Federal Rules of
Civil Procedure. Because we conclude that the District
Court erred in dismissing the claims, we will vacate
and remand this matter for further proceedings.
I.
A.
On February 14, 2014, Garrett, then a prisoner
at SCI Houtzdale, filed a six-page pro se civil rights
complaint pursuant to 42 U.S.C. § 1983 in the United
States District Court for the Middle District of Pennsylvania. Garrett alleged that, while incarcerated, he
had been prescribed a wheelchair and walker to assist him with mobility. Upon being transferred to SCI
Houtzdale in January 2014, medical staff at that facility allegedly discontinued Garrett’s use of a walker and
wheelchair, forbade him from receiving walking assistance from other inmates, and discontinued his “psych”
medication. According to Garrett, these decisions severely restricted his mobility, caused falls giving rise to
further serious injury, and prevented him from accessing
both medication and food. In addition, he alleged that
the medical staff conducted a rectal examination without his consent and that this amounted to sexual assault.
Garrett named six individual defendants1 and sought
injunctive and declaratory relief and compensatory
1

Garrett named Dr. Naji, Debra Younkin, Janet Pearson,
Deborah Cutshall, Shella Khatri, and Steven Glunt.

App. 5
and punitive damages. He acknowledged on the first
page of his complaint that, although he had filed grievances concerning his claims, the grievance process was
not complete.
B.
On February 24, 2014, Garrett’s complaint was
transferred to the United States District Court for
the Western District of Pennsylvania, the District in
which SCI Houtzdale is located. Garrett filed an
amended complaint as of right in March 2014, submitting lengthier and more detailed allegations and adding additional staff as defendants.2 Garrett re-alleged
the denial of medication and assistive devices, which
led to aggravated injuries and serious falls, missed
meals, the inability to receive medication on the “pill
line,” denial of access to previously prescribed medications, and the inability to bathe himself. And he included new claims. For instance, he alleged that staff
issued him “misconducts” for asking for assistance
with walking and that they declined to provide health
care after falls and laughed when he fell and struggled
on the floor. He also alleged that he experienced retaliation for filing grievances and for pursuing his § 1983

2

In addition to the original six defendants, Garrett named
Wexford Health, Superintendent Cameron, Deputy Superintendent Close, K. Hollinbaugh, Doretta Chencharick, Joel Barrows,
L.S. Kerns-Barr, Jack Walmer, M.J. Barber, Mr. Shetler, Ms.
Cogan, Mr. Little, and unidentified “operational staff.”

App. 6
complaint. Garrett identified grievances that he had
filed concerning some of these claims.
On April 17, 2014, the Secretary’s Office of Inmate
Grievances and Appeals issued a Final Appeal Decision on seven of Garrett’s grievances concerning his
alleged mistreatment at SCI Houtzdale.3 The Final
Appeal Decision indicates that “[Garrett’s] concern of
not being provided proper medical care was reviewed
along with [his] medical record by the staff of the Bureau of Health Care Services. It was determined that
the medical care provided was reasonable and appropriate. . . . No evidence of neglect or deliberate indifference has been found.”4 Joint Appendix (“JA”) 163.

3

The seven grievances included, inter alia, descriptions of
the following incidents: (1) on January 9, 2014, medical staff conducted an unwanted rectal examination amounting to sexual assault, and Dr. Naji ordered the denial of a walker and ordered Dr.
Khatri to discontinue Garrett’s “psych” medication; (2) on January 13, 2014, Dr. Naji ordered that Garrett’s walker be confiscated, thereby preventing Garrett from walking, accessing food,
or showering, and causing him to suffer injury from falls; (3) on
January 17, 2014, Garrett urinated on himself and could not
properly bathe afterwards because Dr. Naji denied him a walker
or wheelchair and prison officials denied him access to a handicapped-accessible shower; (4) on January 18, 2014, Garrett was
denied any medication stronger than Tylenol for severe back
spasms and chest and back pain; and (5) on January 23, 2014,
Garrett suffered adverse health effects from the denial of a wheelchair and walker and could not obtain medication or food due to
his inability to walk.
4
Additional final grievance appeal decisions resolving other,
similar grievances were issued throughout the summer and fall
of 2014.

App. 7
C.
Soon thereafter, on June 3, 2014, Garrett filed a
second amended complaint (SAC), having been granted
leave from the District Court to do so. The SAC named
more than forty defendants.5 Garrett once again complained of inadequate medical treatment, including
the withholding of a walker and wheelchair. He alleged
that staff did not provide treatment after falls, relegated him to solitary confinement for asking for help
walking, and denied him meals. He added descriptions
of additional incidents, including an occasion on March
20, 2014, when medical staff left him strapped to a
stretcher for nine hours without treatment, unable to
move or relieve himself and, later, denied him access to
a handicapped-accessible shower in which to clean up
after soiling himself. Garrett also alleged that he was
denied access to a “disability gym” as part of his medical treatment. The SAC averred that Garrett had
“[e]xhaust[ed] [a]ll [a]dministrative [r]emedies.” JA 89.
Several groups of defendants filed motions to dismiss the SAC. In December 2014, Garrett requested a
5

The SAC named the following defendants: Dr. Naji, Debra
Younkin, Janet Pearson, Deb Cutshall, Shella Khatri, P.A. Joe,
P.A. Casey, Nurse Lori, Nurse Debbie, Nurse Rodger, Nurse John,
Nurse Hanna, Superintendent Cameron, Steven Glunt, David Close,
K. Hollinbaugh, Dorretta Chencharick, Joel Barrows, James Morris, Peggy Bachman, Tracey Hamer, Captain Brumbaugh, Captain
Miller, Lt. Shea, Lt. Horton, Lt. Lewis, Lt. Glass, L.S. Kerns-Barr,
F. Nunez, Jack Walmer, M.J. Barber, Mr. Shetler, Ms. Cogan, Mr.
Little, Sgt. Snipes, Sgt. James, Sgt. Young, Medical Officer London, Medical Officer Owens, Security Officer Garvey, Officer Uncles, and unidentified “operational staff.”

App. 8
stay until after his expected release in March 2015 in
order to attempt to obtain private counsel.6 The Magistrate Judge granted the stay request and directed
that Garrett must respond to the motions to dismiss by
May 15, 2015.7 In April, Garrett sought an additional
stay, which the Magistrate Judge granted.
On July 15, 2015, Garrett notified the District
Court that he had been released on May 19, 2015. He
also moved to lift the stay and for appointment of counsel. The Magistrate Judge lifted the stay, denied the
counsel motion without prejudice, directed Garrett to
update his financial information in light of his release
from prison, and set a deadline for Garrett to respond
to the motions to dismiss.
Garrett timely responded to the motions to dismiss and again sought to amend the complaint. In February 2016, the Magistrate Judge granted his motion
to amend.
D.
The Third Amended Complaint (TAC) (which Garrett mistakenly titled “Second Amended Complaint”)
6

Garrett previously had moved three times for the appointment of counsel. The Magistrate Judge denied each motion without prejudice.
7
Although the District Court did not rule on the other motions to dismiss, it granted a motion to dismiss filed by Wexford
Health, concluding that Garrett had erroneously named an incorrect entity that does not provide medical care to prisoners at SCI
Houtzdale. Garrett has not appealed that dismissal.

App. 9
was docketed on February 5, 2016. In the TAC, in addition to pursuing relief under § 1983, Garrett added a
reference to the Americans with Disabilities Act (ADA)
and a claim of intentional infliction of emotional distress.
The TAC added more than thirty additional defendants,8
realleged the prior claims concerning the alleged denial
of medical care, and added several supplemental claims,
including claims of retaliation.9 Garrett alleged that he

8

In addition to those named in the SAC, the TAC added
Wexford Health Sources, Inc., Nurse Rich, Nurse Barnes, Nurse
Rob Simongton, Nurse John Altemus, Nurse Lisa Hanna, Nurse
Gray, Dr. Haresh Pandya, Dr. William Bainbridge, Dr. Nail [sic]
Fisher, Dr. Ralph W. Smith, Dr. Muhammad Golsorkhi, Dr. Jafar M.,
Physician Frederick, Peter Clernick, D.O., Dean Moesh, M.D.,
Nurse Joyce, Warren Gross, M.D., L.F., Rochelle Rosen, M.D.,
James Collins, M.D., Paul Noel, III, M.D., R. Mechack, P.A., Supervisor Bob, Nurse Jose, Nurse Grimley, John Wetzel, John
Sawtelle, Robin Lewis, Rebecca Reifer, Sgt. White, C.O. Kowaryk,
Officer Blackson, Sgt. Chappell, Officer Hunt, Sgt. Woomer, Sgt.
Snyder, Mr. Defelice, Heather Moore, Officer McClellan, and Officer English.
9
Among the newly added allegations were descriptions of the
following incidents: (1) on April 10, 2014, two officials (Woomer
and Defelice) told other inmates to stop helping Garrett walk and,
when he fell as a result, Woomer told him to “crawl like a dog,”
JA 142; (2) on April 24, 2014, an official (Hunt) retaliated against
Garrett by threatening him and calling him a racial slur for having other inmates assist him and because he engaged in protected
activities (i.e., filing grievances); (3) on May 11, 2014, medical
staff (Rich, Rodger, and Barnes) intentionally tampered with Garrett’s medical records to hide the results of an abnormal EKG
reading and refused to provide adequate treatment for chest pain
and a possible coronary condition; (4) on June 15, 2014, an official
(James) awoke Garrett by slamming him on the chest to deliver
a written misconduct in retaliation for filing grievances; and
(5) on July 9, 2014, prison officials (McClellan, Hunt, Young, and

App. 10
had filed grievances as to some of these claims, and the
record reflects that he had fully exhausted at least
three of them prior to his release.
Several groups of defendants again filed motions
to dismiss. In support of dismissal, defendants Khatri,
Dr. Naji, Cutshall, Thornley, and Nagel (collectively referred to as the Medical Defendants10) argued that the
complaint should be dismissed for failure to properly
exhaust administrative remedies under the PLRA. The
Magistrate Judge converted the Medical Defendants’
motions to motions for summary judgment. The remaining defendants (collectively referred to as the Corrections Defendants) did not assert an administrative
exhaustion defense. Instead, the Corrections Defendants argued that the TAC failed to comply with Rules
8 and 12 of the Federal Rules of Civil Procedure, and
argued that they were entitled to dismissal or, in the
alternative, to a more definite statement under Rule
12(e).
On July 14, 2016, the Magistrate Judge issued a
report and recommendation (R&R) recommending
that the claims against the Medical Defendants be dismissed for failure to fully exhaust administrative remedies. Relying upon our decision in Ahmed v. Dragovich,
297 F.3d 201, 210 (3d Cir. 2002), the Magistrate Judge
concluded that Garrett’s status as a prisoner, and the
Barber) denied Garrett access to a handicapped-accessible shower,
after which he fell and injured himself.
10
Dr. Khatri has separate counsel from the other four Medical Defendants.

App. 11
status of the administrative grievance process, must be
considered as of the time Garrett filed his original complaint (February 2014), not as of the filing of the TAC
(February 2016). Thus, although many of Garrett’s
claims were administratively exhausted and he was no
longer in prison by the time he filed the TAC, the Magistrate Judge recommended that summary judgment
be granted in favor of the Medical Defendants based
on Garrett’s initial failure to exhaust.
As to the Corrections Defendants, the Magistrate
Judge observed that the TAC consisted of 36 typewritten pages containing 90 paragraphs, “yet there is virtually no detail as to who did what and the dates of
when the violations allegedly occurred.” JA 9. The R&R
noted that Garrett had cited the ADA but had purported to file his complaint only under § 1983, that the
TAC contained references to injunctive relief, which
was moot due to Garrett’s release, and that the TAC
referred to the prior iterations of the complaints as
“supplemental” to the original complaint, rather than
as amendments. In addition, the R&R observed that
the TAC referred to more than 60 defendants, but only
37 had been served.
The Magistrate Judge determined that requiring
the Corrections Defendants to respond to the TAC’s
allegations as pleaded would be unreasonable, and
therefore recommended granting the motion for a more
definite statement. She expressly cautioned Garrett
that this last opportunity to amend should not be
viewed as an invitation to add new and unrelated allegations or defendants. She further cautioned that a

App. 12
failure to comply would result in dismissal. Finally, the
Magistrate Judge stated that any claims against the
Corrections Defendants, like the claims against the
Medical Defendants, could be subject to dismissal for
failure to exhaust “if [Garrett] failed to exhaust those
claims prior to bringing this lawsuit.” JA 11. On September 9, 2016, the District Court adopted the R&R
and issued an appropriate opinion and order.
E.
On November 21, 2016, Garrett filed his Fourth
Amended Complaint (FAC). The FAC, at fifteen typewritten pages, is less than half the length of the TAC.
Consistent with the Magistrate Judge’s instructions,
the FAC included dates and times for most of the alleged events, trimmed the number of defendants,11 and
omitted most of the extraneous references to the ADA
and injunctive relief.12 In many paragraphs of the FAC,
11

Although the FAC names many of the same defendants as
the TAC, Garrett did not include seventeen individuals who had
been named in the TAC (Dr. William Bainbridge, Dr. Nail [sic]
Fisher, Dr. Ralph W. Smith, Dr. Muhammad Golsorkhi, Dr. Jafar
M., Physician Frederick, Peter Clernick, D.O., Dean Moesh, M.D.,
Nurse Joyce, Warren Gross, M.D., L.F., Rochelle Rosen, M.D.,
James Collins, M.D., Paul Noel, III, M.D., R. Mechack, P.A., Supervisor Bob, Nurse Jose, and Nurse Grimley).
12
Garrett has not raised any arguments on appeal concerning an ADA claim. We therefore regard that claim as abandoned.
See Kost v. Kozakiewicz, 1 F.3d 176, 182 (3d Cir. 1993). Garrett’s
counsel also has not raised any arguments on appeal concerning
the FAC’s reference to injunctive relief. To the extent Garrett’s
initial pro se appeal brief raised arguments concerning a right
to injunctive relief, we agree with the Magistrate Judge that any

App. 13
Garrett included a copy of the entire list of more than
fifty defendants, broadly alleging that all of the defendants somehow directly participated in his mistreatment, were aware of that mistreatment and did
not step in to help him, or participated in retaliation
against him.
The FAC also included Garrett’s claims against
the Corrections Defendants which had first appeared
in the TAC. Contrary to the Magistrate Judge’s direction, Garrett re-pleaded the previously dismissed
claims against the Medical Defendants alleging deliberate indifference to his medical needs beginning in
January 2014. Garrett did, however, adhere to her instruction not to present new claims in the FAC.
On June 12, 2017, the Magistrate Judge issued yet
another R&R. In it, she again recommended dismissal
of the claims against the Medical Defendants for the
same reason she had previously given—Garrett’s failure to exhaust administrative remedies as of the initial
February 2014 filing date.13 She recommended that the

request for injunctive relief is moot due to Garrett’s release. See,
e.g., Sutton v. Rasheed, 323 F.3d 236, 248 (3d Cir. 2003) (per curiam) (claims for injunctive relief generally become moot when
the inmate is no longer at the facility being complained of ). We
therefore affirm the dismissal of the request for injunctive relief.
13
Given his pro se status, we do not fault Garrett for repleading his claims against the Medical Defendants in the FAC despite
the Magistrate Judge’s instruction to the contrary. Repleading
preserved the dismissal of those claims for our appellate review.
See Palakovic v. Wetzel, 854 F.3d 209, 220 (3d Cir. 2017) (recognizing that a party should take affirmative measures to ensure

App. 14
claims against the Corrections Defendants also be dismissed because “Plaintiff has utterly failed to once
again comply with Rule 8,” concluding that the FAC
was neither “short” nor “plain.” JA 22. She also concluded that the FAC lacks the facial plausibility to survive a motion to dismiss. The Magistrate Judge stated:
“Plaintiff ’s factual and legal allegations are, to a substantial extent, incomprehensible. There is still virtually no detail as to who did what and when.” JA 22. She
therefore recommended that the FAC be dismissed in
its entirety for failure to comply with Rule 8.
On October 11, 2017, the District Court overruled
Garrett’s objections to the R&R, adopted the Magistrate Judge’s recommendations, dismissed the claims
against the Medical Defendants for failure to exhaust
administrative remedies, dismissed the claims against
the Corrections Defendants pursuant to Rule 8, and
closed the case. Garrett timely appealed.14

the preservation of dismissed claims in a subsequent amended
pleading).
14
The District Court had jurisdiction pursuant to 28 U.S.C.
§ 1331. We have appellate jurisdiction under 28 U.S.C. § 1291.
Because this appeal is taken from the District Court’s final judgment, we have jurisdiction to review the District Court’s judgment and the interlocutory orders that merge into the final
judgment. See Palakovic, 854 F.3d at 220; In re Westinghouse Sec.
Litig., 90 F.3d 696, 706 (3d Cir. 1996). Accordingly, we have jurisdiction to consider both the District Court’s dismissal of the TAC
as well as its dismissal of the FAC.

App. 15
II.15
The PLRA provides in relevant part: “No action
shall be brought with respect to prison conditions under section 1983 of this title, or any other Federal law,
by a prisoner confined in any jail, prison, or other correctional facility until such administrative remedies as
are available are exhausted.” 42 U.S.C. § 1997e(a). Because he was a prisoner in February 2014, the PLRA
applied to Garrett when he filed his original complaint.
The grievance process was not complete as of that date.
But Garrett later was released from prison, and subsequently filed the TAC (and, later, the FAC). Nonetheless, the District Court interpreted the PLRA’s “[n]o
action shall be brought” language to require that administrative exhaustion be complete as of the filing of
the initial complaint, regardless of whether the complaint is supplemented or amended after a change in
the plaintiff ’s custody status.16 We review the District
15

We extend our gratitude to Justin Berg of the University
of Pennsylvania Law School and Stuart Steinberg and Cory Ward
of Dechert LLP for donating their time and talent in accepting
this pro bono appointment and for zealously representing Kareem
Garrett before our Court.
16
We note that we have allowed complaints filed prematurely to be dismissed without prejudice and then refiled when
the administrative remedies were exhausted. “[O]ur pre-PLRA
cases involving exhaustion by federal prisoners have stated that
‘[i]f . . . the administrative remedy has not been exhausted, the
complaint should be dismissed without prejudice to its reinstatement [after exhaustion].’ ” Ghana v. Holland, 226 F.3d 175, 184
n.4 (3d Cir. 2000) (quoting Veteto v. Miller, 794 F.2d 98, 100 (3d
Cir. 1986)). We then, in a post-PLRA case, concluded that “District Court[s] must continue to follow the procedures mandated
by our pre-PLRA cases.” Shane v. Fauver, 213 F.3d 113, 117 (3d

App. 16
Court’s interpretation of the PLRA de novo. AbdulAkbar v. McKelvie, 239 F.3d 307, 311 (3d Cir. 2001) (en
banc).
A.
Garrett’s TAC served two functions. It presented
additional claims arising out of the events described in
the original complaint, but which Garrett had not set
forth in prior pleadings. It also presented new facts
and claims that arose only after the filing of the original complaint, including Garrett’s release from prison.
Accordingly, under Rules 15(a) and 15(d) of the Federal
Rules of Civil Procedure, the TAC became both an
amended complaint and a supplemental complaint.17
Cir. 2000). We noted that “we are not aware of any specific support in the legislative history for the proposition that Congress
also wanted the courts to dismiss claims that may have substantive merit but were inartfully pled.” Id. Had the District Court
here simply dismissed the complaint without prejudice, then allowed Garrett to refile once he had exhausted his administrative
remedies, this case may have been able to be resolved in a more
timely and efficient manner.
17
The Medical Defendants argue that the TAC cannot qualify as a supplemental complaint under Rule 15(d) because Garrett
did not file a motion seeking leave to supplement. We disagree. It
is true that when Garrett filed his motion for leave to amend, he
neither titled the motion as a request to supplement nor referred
to Rule 15(d). But, when he filed that motion, he included a copy
of his proposed TAC. The TAC includes an entire section devoted
to “Plaintiff [’s] Complaints Supplemental to Presented Medical
Complaints” in which Garrett alleges retaliation since the filing
of the original complaint. JA 150. In addition, while the TAC does
not directly discuss Garrett’s release, it mentions his parole
date—a date which had passed by the time he filed the motion for
leave to amend. It also reflects his private address rather than a

App. 17
See Fed. R. Civ. P. 15(a), 15(d). We therefore begin our
discussion by considering the purpose and effect of filing a supplemental or amended complaint under Rule
15.
“The function of Rule 15(a), which provides generally for the amendment of pleadings, is to enable a
party to assert matters that were overlooked or were
unknown at the time the party interposed the original
complaint.” 6 C. Wright & A. Miller, Federal Practice
and Procedure § 1473 (3d ed. 2019). Rule 15(a) embodies the federal courts’ policy of liberal pleading amendment by ensuring that an inadvertent error in, or
omission from, an original pleading will not preclude a
party from securing relief on the merits of his claim.
Arthur v. Maersk, Inc., 434 F.3d 196, 202 (3d Cir. 2006).
In general, an amended pleading supersedes the original pleading and renders the original pleading a nullity. Palakovic, 854 F.3d at 220; Wright & Miller, supra,
§ 1476. Thus, the most recently filed amended complaint becomes the operative pleading. See W. Run
prison address. Thus, the proposed TAC contained supplemental
facts and claims that occurred after the initial filing date, and the
Magistrate Judge was aware of those supplemental facts and
claims when she granted Garrett leave to file it. And although she
chastised Garrett for including new claims in the TAC, she did
not strike them. Accordingly, and particularly in light of Garrett’s
pro se status and our policy of considering motions based on their
substance rather than their title, see Lewis v. Att’y Gen., 878 F.2d
714, 722 n.20 (3d Cir. 1989) (“A pleading will be judged by its substance rather than according to its form or label.”) (quoting 5 C.
Wright & A. Miller, Federal Practice and Procedure § 1286 (1969)),
we conclude that Garrett properly invoked Rule 15(d) and that his
TAC was, in part, a supplemental complaint.

App. 18
Student Hous. Assocs., LLC v. Huntington Nat’l Bank,
712 F.3d 165, 171 (3d Cir. 2013). It has long been the
rule then that where a party’s status determines a
statute’s applicability, it is his status at the time of the
amendment and not at the time of the original filing
that determines whether a statutory precondition to
suit has been satisfied.18 See, e.g., Mo., K&T Railway
Co. v. Wulf, 226 U.S. 570, 575 (1913) (amended petition
related back to commencement of action and cured
initially improper pleading); New Rock Asset Partners,
L.P. v. Preferred Entity Advancements, Inc., 101 F.3d
1492, 1503 (3d Cir. 1996) (subject matter jurisdiction
must be reassessed as of the filing of the amended complaint).
Rule 15(d) operates in conjunction with Rule 15(a).
Upon motion and reasonable notice, Rule 15(d) allows
a court to grant a party the ability to “serve a supplemental pleading setting out any transaction, occurrence, or event that happened after the date of the
pleading to be supplemented.” Fed. R. Civ. P. 15(d).
Thus, rather than set forth additional events that occurred before the original complaint was filed, as does
a Rule 15(a) amendment, a supplemental pleading under Rule 15(d) presents more recent events. Rule 15(d)
thus promotes a complete adjudication of the dispute
between the parties. See William Inglis & Sons Baking

18

Of course, the original pleading is not entirely without effect. When the original pleading has been superseded, an amended
pleading still may relate back to the filing date of the original
pleading for statute of limitations purposes. Fed. R. Civ. P. 15(c).

App. 19
Co. v. ITT Cont’l Baking Co., 668 F.2d 1014, 1057 (9th
Cir. 1981).
Rule 15(d) expressly provides that supplementation may be permitted “even though the original pleading is defective in stating a claim or defense.” Fed. R.
Civ. P. 15(d). Supplementation under Rule 15(d) therefore can be employed to allege subsequent facts to cure
a deficient pleading. See Mathews v. Diaz, 426 U.S. 67,
75 & n.8 (1976) (recognizing that plaintiff who had not
satisfied “a nonwaivable condition of jurisdiction” before filing suit had subsequently satisfied the condition, so “[a] supplemental complaint in the District
Court would have eliminated this jurisdictional issue”); see also, e.g., U.S. ex rel. Gadbois v. PharMerica
Corp., 809 F.3d 1, 5 (1st Cir. 2015) (discussing the use
of Rule 15(d) to add newly arising facts to cure pleading defects such as lack of subject matter jurisdiction
or standing).
Our recent decision in T Mobile Ne. LLC v. City of
Wilmington, Del., 913 F.3d 311 (3d Cir. 2019), illustrates the operation of Rule 15(d) to cure an initially
defective complaint. There, T Mobile sought to proceed
in district court pursuant to the Telecommunications
Act of 1996 (TCA), which permits a disappointed wireless service provider to seek review of a zoning board
decision “within 30 days after” a zoning authority’s “final action.” 47 U.S.C. § 332(c)(7)(B)(v). T Mobile filed
its complaint within 30 days after the zoning board’s
oral decision, not waiting for the subsequent written
decision, which followed nearly a year later. T Mobile,
913 F.3d at 316-17. The District Court concluded that

App. 20
it lacked jurisdiction to proceed, despite T Mobile’s
later-filed supplemental complaint addressing the issuance of the final written decision. Id. at 317.
On appeal, we agreed with the District Court that
the board’s written decision constituted the appealable
“final action” under the TCA, and so T Mobile’s complaint was not yet ripe when it was originally filed. Id.
at 318, 323. We determined that the TCA’s 30-day filing
requirement is non-jurisdictional, so the later-filed supplemental complaint, which T Mobile belatedly filed
more than 30 days after the board’s “final action,” was
not necessarily barred. Id. at 324. We then concluded
that T Mobile’s supplemental complaint could—and
did—relate back to the date of the initial complaint to
cure its initial unripeness. Id. at 326.
We observed that the District Court’s decision to
grant T Mobile’s motion to supplement its complaint
under Rule 15(d) was a proper exercise of its discretion.
Indeed, we described the decision as “just” because the
defendant “had long since had notice of the event—the
filing of the written denial—that occurred after the initial pleading.” Id. Moreover, Rule 15(d)’s express terms
permit supplementation where an original pleading is
defective. Id.
Although Rule 15(d) does not expressly indicate
whether or when a supplemental pleading can relate
back to the original complaint, we determined that
“case law and secondary sources have long instructed
that once a supplemental complaint is granted, it is
treated like an amended complaint for purposes of

App. 21
relation back.” Id. at 327. Thus, like an amended complaint, a supplemental complaint may “relate back”
when it “asserts a claim or defense that arose out of
the conduct, transaction, or occurrence set out—or attempted to be set out—in the original pleading.” Fed.
R. Civ. P. 15(c)(1)(B). Because T Mobile’s original and
supplemental complaints both “rel[ied] on the same
core facts,” relation back was proper. T Mobile, 913 F.3d
at 328.
As T Mobile makes clear, a supplemental complaint under Rule 15(d) that relates back to the original complaint may cure the filing defect in the original
complaint. Id. We observed that this is consistent with
the policy underlying Rule 15: “The clear preference
embodied in Rule 15 is for merits-based decision making.” Id. We also noted that many courts have permitted the use of relation back to address and cure filing
defects, for instance, by permitting a party to re-plead
to establish subject matter jurisdiction or to drop a
party that would bar the exercise of diversity jurisdiction. Id. at 328-29. This preference for merits-based decision making and the historical use of Rule 15(d) to
cure filing defects militated in favor of a conclusion
that T Mobile’s untimely supplemental complaint related back so as to cure the unripeness of its original
complaint.
When we apply the logic of T Mobile to Garrett’s
case, the outcome is clear. Garrett’s original complaint
was defective because, although he was a prisoner
when he filed it, he failed to first exhaust his administrative remedies by completing the prison grievance

App. 22
process then in effect. Two years later, Garrett filed
an amended and supplemental complaint—the TAC
—pursuant to Rule 15. The TAC, as the operative
amended pleading, superseded Garrett’s prior complaints. Palakovic, 854 F.3d at 220. Both the amended
and supplemental claims in the TAC relate back to the
original complaint because they concern the same core
operative facts of which the Medical Defendants long
had notice.19 See Fed. R. Civ. P. 15(c)(1); T Mobile,
913 F.3d at 328. When he filed the TAC, Garrett was
no longer a prisoner and therefore was not subject to
the PLRA’s administrative exhaustion requirement.20
19

Pennsylvania’s two-year statute of limitations applies to
Garrett’s § 1983 claims. See Sameric Corp. of Del. v. City of Phila.,
142 F.3d 582, 599 (3d Cir. 1998). Many of the events giving rise
to Garrett’s claims occurred in January 2014, and the TAC was
filed in February 2016, more than two years later. Because we
conclude that the TAC relates back under Fed. R. Civ. P. 15(c),
Garrett does not face a statute of limitations problem.
20
As previously noted, the TAC does not explicitly allege that
Garrett was a non-prisoner at the time he filed it, although that
fact is obvious from the face of the TAC. See supra note 16. The
absence of an express allegation does not impact our analysis. It
was well known to the defendants and to the District Court that
Garrett had been released before he filed the TAC; he provided
written notice advising of that fact. Moreover, it was not Garrett’s
obligation to plead his status as a non-prisoner because the PLRA
is not the source of his claim. See Jones v. Bock, 549 U.S. 199, 212
(2007). Rather, as the Supreme Court explained in Bock, the onus
is on a defendant to raise administrative exhaustion as an affirmative defense. Id. Logically, an individual’s status as a prisoner or
non-prisoner for purposes of the applicability of the PLRA’s administrative exhaustion provision also cannot be an affirmative
pleading requirement. Garrett appropriately argued his status as
a non-prisoner in response to the Medical Defendants’ motion to
dismiss the TAC.

App. 23
Thus, because it relates back to the original complaint,
the TAC cures the original filing defect.21 Id.
B.
Before we may undertake the fairly straightforward Rule 15 analysis, we must resolve an issue which
the Magistrate Judge recognized in her first R&R. A
precedential opinion of this Court can be read to suggest that the § 1997e(a) administrative exhaustion requirement undermines the usual operation of Rule 15,
so that a complaint that is defective for failure to satisfy the PLRA’s administrative exhaustion requirement cannot be cured. Specifically, according to the
Magistrate Judge, under Ahmed v. Dragovich, 297 F.3d
201 (3d Cir. 2002), “Plaintiff ’s status as a ‘prisoner’ is
determined at the time his complaint is ‘brought’ or
filed in court.”22 JA 6. We therefore consider the import
of Ahmed and its effect, if any, on Garrett’s case.
21

A recent decision by the Tenth Circuit, May v. Segovia, 929
F.3d 1223 (10th Cir. 2019), takes a contrary view of the operation
of Rule 15. In May, the Court decided that Rule 15 relates back to
the original complaint for purposes of the PLRA’s exhaustion requirement, concluding that an amended complaint “supersedes
the original complaint’s allegations but not its timing.” Id. at 1229
(emphasis in original). In addition, the May Court took the view
that relation back for purposes of cure is only permissible when
the pleading flaw is jurisdictional in nature and is therefore an
affirmative pleading requirement. Id. The Tenth Circuit’s approach is at odds with our decision in T Mobile. We therefore decline to adopt it.
22
Given the Magistrate Judge’s conclusion (adopted by the
District Court) that Garrett could never have cured his initially
defective complaint, we find it perplexing that Garrett was repeatedly

App. 24
In Ahmed, the plaintiff filed grievances against
two prison officials alleging excessive force but failed
to complete the grievance appeal process. He then filed
a § 1983 complaint. The District Court dismissed the
complaint without prejudice for failure to exhaust administrative remedies pursuant to the PLRA. Ahmed
did not appeal the dismissal. Subsequently, the statute
of limitations for Ahmed’s claim expired and he was released from prison. Only then did Ahmed move in the
District Court for leave to file an amended complaint.
He proposed that his amended complaint should relate
back to the date of the initial complaint, to reflect both
an untimely effort to appeal his grievance as well as
his release from prison. The District Court denied the
post-judgment motion, and Ahmed appealed.
We observed that, although the dismissal of the
complaint was without prejudice and therefore was not
immediately appealable, it became a final and appealable judgment after the statute of limitations expired.
granted leave to amend. The Medical Defendants first raised their
exhaustion defense in November 2014, and, rather than permitting multiple amendments over the course of nearly two years,
the District Court could have promptly considered the defense
and denied further amendments as futile. See Grayson v. Mayview State Hosp., 293 F.3d 103, 108 (3d Cir. 2002) (leave to amend
need not be provided where amendment would be inequitable or
futile). Had that court done so, the parties would have benefitted
from a more prompt disposition. For example, Garrett could have
filed a new complaint after exhaustion was complete but before
both his release and the running of the statute of limitations. But
this observation has no impact here because, as we will discuss,
we do not agree with the District Court’s underlying conclusion
that Garrett’s original complaint suffered from an incurable flaw.

App. 25
297 F.3d at 207. Once the dismissal became a final
judgment, Ahmed could no longer invoke Rule 15 because that rule is not intended to permit the postjudgment amendment of a complaint. Id. at 207-08.
Rather, following entry of judgment, Rule 59 and Rule
60 govern post-judgment proceedings. Id. at 208. We
therefore construed Ahmed’s motion as seeking relief
under Rule 60 and considered whether the District
Court’s denial of the motion was an abuse of its discretion. Id. at 209. We concluded it was not.
Specifically, we observed that allegations concerning Ahmed’s untimely appeal of the grievance would
not have cured his failure to exhaust administrative
remedies. Id. at 209. We rejected Ahmed’s argument
that his proposed post-judgment amendment would
have demonstrated “substantial compliance” with the
exhaustion requirement as discussed in Nyhuis v.
Reno, 204 F.3d 65, 77-78 (3d Cir. 2000). We observed,
“[w]hatever the parameters of ‘substantial compliance’
referred to [in Nyhuis], it does not encompass a secondstep appeal five months late nor the filing of a suit before administrative exhaustion, however late, has been
completed.” Ahmed, 297 F.3d at 209. We therefore concluded that Ahmed’s proffered post-judgment amendment of the complaint could not cure its defect. Id.
We also concluded that a post-judgment amendment incorporating the fact of Ahmed’s release would
not have cured the defect in the initial complaint. We
acknowledged the Commonwealth’s concession that
Ahmed would not have been barred from filing a new
§ 1983 complaint following his release, and that any

App. 26
new matter would not have been subject to the PLRA’s
strictures. But we declared that Ahmed was “bound by
the PLRA because his suit was filed . . . almost three
years before he was released from prison.” Id. at 210.
In applying Ahmed to Garrett’s case, the District
Court concluded that the filing of the initial complaint
was the unalterable starting point from which to consider a plaintiff ’s status as a prisoner. This overreads
Ahmed, the post-judgment posture of which renders it
inapposite to Garrett’s case.
Ahmed was a prisoner subject to the PLRA when
he filed his complaint, and he remained a prisoner subject to the PLRA when the District Court entered its
final judgment. Because he sought to reopen a final
judgment, the policy favoring the finality of judgments
was implicated. The permissive policy favoring amendment under Rule 15 was simply not relevant. See
Leisure Caviar, LLC v. U.S. Fish & Wildlife Serv., 616
F.3d 612, 615-16 (6th Cir. 2010) (“[W]hen a Rule 15 motion comes after a judgment against the plaintiff, . . .
Courts . . . must consider[ ] the competing interest of
protecting the finality of judgments and the expeditious termination of litigation.” (emphasis and internal
quotation omitted)); see also 6 C. Wright & A. Miller,
Federal Practice and Procedure § 1489 (3d ed. 2019)
(“To hold [that Rule 15 permits amendment after judgment] would enable the liberal amendment policy of
Rule 15(a) to be employed in a way that is contrary to
the philosophy favoring finality of judgments and the
expeditious termination of litigation.”).

App. 27
In the post-judgment context, the narrow grounds
for relief set forth in Rules 59 and 60 must guide a District Court’s decision about whether an otherwise-final
judgment should be disturbed. Indeed:
If a permissive amendment policy applied after adverse judgments, plaintiffs could use the
court as a sounding board to discover holes
in their arguments, then ‘reopen the case by
amending their complaint to take account of
the court’s decision.’ That would sidestep the
narrow grounds for obtaining post-judgment
relief under Rules 59 and 60, make the finality of judgments an interim concept and risk
turning Rules 59 and 60 into nullities.
Leisure Caviar, 616 F.3d at 616 (citations omitted).
Thus, a different set of rules emphasizing vastly different policies pertained to the motion in Ahmed, and
those rules do not apply to Garrett’s case.
C.
To the extent we were in need of reassurance that
the District Court’s expansive application of Ahmed
is mistaken, the Supreme Court’s unanimous decision
in Jones v. Bock, 549 U.S. 199 (2007), provides such
comfort. Bock does not directly address the issues in
Garrett’s appeal, nor does it overrule Ahmed. It does,
however, offer principles of critical importance to our
resolution of Garrett’s appeal and how we must understand and apply Ahmed.

App. 28
In Bock, the Supreme Court considered a series of
procedural rules that the Sixth Circuit had adopted in
an effort to implement various aspects of the PLRA,
including its administrative exhaustion and screening
requirements. The Sixth Circuit’s rules required, inter
alia, that: (1) a prisoner’s complaint must include affirmative proof of exhaustion; (2) the prisoner’s grievances must identify every individual who is later
named in the lawsuit; and (3) no part of the complaint
may proceed if any single claim is not properly exhausted, and leave to amend to proceed with unexhausted claims is not permitted.
The Supreme Court rejected the Sixth Circuit’s
approach, holding that “adopting different and more
onerous pleading rules to deal with particular categories of cases should be done through established rulemaking procedures, and not on a case-by-case basis by
the courts.” Id. at 224. Thus, because the PLRA did not
impose the strict requirements that the Sixth Circuit
had adopted, the more generous pleading requirements set forth in the Federal Rules controlled.
Addressing each of the Sixth Circuit’s rules in
turn, the Supreme Court first held that administrative
exhaustion in the PLRA context, consistent with the
general practice under the Federal Rules, is an affirmative defense and not a pleading requirement. Id. at
212. The Court stated, “we have explained that courts
should generally not depart from the usual practice
under the Federal Rules on the basis of perceived policy concerns.” Id. Furthermore, it held “that the PLRA’s
screening requirement does not—explicitly or implicitly

App. 29
—justify deviating from the usual procedural practice
beyond the departures specified by the PLRA itself.”
Id. at 214. Indeed, in other instances where Congress
deviated from the usual pleading requirements, “it did
so expressly.” Id. at 216.
Next, the Supreme Court rejected the Sixth Circuit’s rule requiring that every defendant must be
identified in the initial prisoner grievance in order for
the complaint to proceed, concluding that “the lower
court’s procedural rule lacks a textual basis in the
PLRA.” Id. at 217. Rather, the prisoner must comply
with the particular prison’s grievance procedures,
whatever those may be, in order to satisfy the PLRA’s
exhaustion requirement. Id. at 218.
Finally, the Supreme Court rejected the Sixth Circuit’s practice of dismissing the entire complaint when
only some claims were unexhausted. Although the
practice had some support in § 1997e(a), which states
that “[n]o action shall be brought” unless administrative remedies are exhausted, the court was dismissive
of this language as “boilerplate” that is not sufficient to
lead to dismissal of an entire action solely because
some claims are wanting. Id. at 220. Rather, the Court
held that the more general rule of practice applies,
such that “if a complaint contains both good and bad
claims, the court proceeds with the good and leaves the
bad.” Id. at 221.
Bock teaches, then, that the usual procedural rules
apply to PLRA cases unless the PLRA specifies otherwise, and that a decision about whether to apply the

App. 30
usual procedural rules should not be guided by “perceived policy concerns.” Id. at 212. Applying these important principles, we conclude that the PLRA does not
override the usual operation of Rule 15 here. Accordingly, Garrett’s status as a non-prisoner at the time he
filed the TAC is determinative of the Medical Defendants’ administrative exhaustion defense.
D.
As discussed in Section II.A., the normal operation
of Rule 15 means that, when filed, Garrett’s TAC became the operative pleading. Because the TAC relates
back to Garrett’s original complaint, his change in status (i.e., his release) operates to cure the original filing
defect (i.e., his failure to exhaust administrative remedies). See T Mobile, 913 F.3d at 328. There is nothing
in the language of § 1997e(a) implicitly or explicitly
mandating a contrary approach.
Our conclusion is consistent with our own case
law. In Hagan v. Rogers, 570 F.3d 146, 154-55 (3d Cir.
2009), for example, we held that the PLRA cannot alter
a rule of civil procedure unless it makes an express reference to such a rule, or it impliedly repeals it by “clear
and manifest” intention to do so.23 We therefore concluded that the PLRA does not displace the joinder
23

Hagan, which was decided after Bock, did not directly apply Bock. Nonetheless, its analysis and result are consistent with
Bock. Hagan, like Bock, concludes that the usual procedural rules
apply to PLRA cases unless the PLRA makes clear that a departure from the rules is required.

App. 31
rules set forth in Rule 20 because the PLRA makes no
reference to joinder, and because there is no “irreconcilable conflict” between Rule 20 and the PLRA. Id. at
155. Analogously, nothing in the PLRA’s administrative exhaustion provision mentions Rule 15, much less
alters the text or operation of the rule.
Indeed, we followed this approach even before the
Supreme Court decided Bock. In Grayson v. Mayview
State Hospital, 293 F.3d 103, 110 (3d Cir. 2002), and
Shane v. Fauver, 213 F.3d 113, 116-17 (3d Cir. 2000),
we rejected the argument that language in the PLRA
directing that a court “shall dismiss” a complaint under certain circumstances is sufficient to override the
more general procedural requirement under Rule 15
that a litigant is entitled to amendment unless amending the complaint would be inequitable or futile. In
Grayson, for instance, we concluded: “there is no reason that a district court should fail to retain its preexisting authority under [Rule 15] to permit plaintiffs
leave to amend.” Grayson, 293 F.3d at 111. Similarly,
in Shane, we stated: “we are . . . hesitant to conclude
that Congress meant to change established procedures
without a clearer indication than we have here.” Shane,
213 F.3d at 117.
Looking beyond our own case law, a sister Circuit
has applied Bock to circumstances similar to Garrett’s,
and that Court reached a conclusion consistent with
how we decide the instant matter. In Jackson v. Fong,
870 F.3d 928 (9th Cir. 2017), the Ninth Circuit considered whether Jackson, a prisoner who filed an initial complaint before administratively exhausting his

App. 32
claims, and who was granted leave to amend his complaint after his release, continued to be subject to the
PLRA’s exhaustion requirement. As the Ninth Circuit
summed up the matter, Jackson’s case turned on “whether
the court should look to the initiation of the suit (when
Jackson was a prisoner, and had not exhausted his
remedies), or to Jackson’s operative third amended
complaint (filed when Jackson was not a prisoner, and
the exhaustion requirement did not apply).” Id. at 933.
The Ninth Circuit observed that the operative
complaint “completely supersedes” any earlier complaints, and that Bock directs that an exhaustion defense under the PLRA should be considered within the
framework of the Federal Rules of Civil Procedure. Id.
at 934. Applying these principles, the Court concluded
that Jackson’s “amended complaint, filed when he was
no longer a prisoner, obviates an exhaustion defense.”
Id. In reaching its decision, the Ninth Circuit explicitly
chose not to follow our opinion in Ahmed, both because
Ahmed pre-dates Bock and because it did not apply
Rule 15. Id. at 935.
The Jackson Court dismissed several of the defendants’ policy concerns about the potential for its
holding to lead to litigation abuse by prisoners. It observed, for instance, that Rule 15 permits a District
Court discretion to deny leave to amend, particularly
where a prisoner appears to be “gaming the courts” in
some manner. Id. at 936. In addition, the Court observed that an administrative exhaustion requirement
after a prisoner’s release would not serve the purpose
of permitting officials to address problems internally

App. 33
because, after release, “there is no internal [grievance]
process left to undermine.” Id. Because Jackson could
have chosen to file a new suit but did not do so, his
decision to amend promoted judicial economy. Id. Finally—and most importantly—the Ninth Circuit observed that, under Bock, it did not have license to rely
on policy concerns in carving out exceptions to the Federal Rules in any event. Id. at 937.
Here, the Medical Defendants contend that we
should not follow Jackson. They state that Jackson is
“very short” and “gave virtually no serious thought to
the implications of its very simplistic holding,” Med.
Def. Supp. Br. 24, arguing that the decision overlooked
the significant policy concerns at stake. The Medical
Defendants express concerns about fairness, observing
that they promptly raised their exhaustion defense
long before Garrett was released from prison. But, they
contend, only because the District Court granted Garrett both a stay and several opportunities to amend,
the District Court did not issue its ruling until after
his release. In addition, they argue that permitting
supplementation after release would create an incentive for prisoner-plaintiffs to delay proceedings until
their release. Id. at 28. These arguments are unpersuasive.
The decision of whether to permit a plaintiff to file
an amended or supplemental complaint under Rule 15
is within a District Court’s discretion and is guided by
Rule 15’s liberal standards. See Fed. R. Civ. P. 15(a)(2)
(“The court should freely give leave [to amend] when
justice so requires.”). Garrett filed his TAC and FAC

App. 34
with leave of court. Rule 15 permits the District Court
discretion to deny additional amendments (after the
initial amendment as of right, see Fed. R. Civ. P.
15(a)(1)) precisely so that litigants will not try to game
the system by improperly delaying a case or otherwise
causing prejudice to a defendant’s validly raised defenses. As the Jackson court aptly observed, “[d]istrict
court discretion is critical to assessing the fairness of
amended pleadings.” 870 F.3d at 936.
The Medical Defendants also worry that departments of corrections, in denying release to prisoners,
will be accused of doing so solely for the improper reason of preserving their exhaustion defense. Furthermore, according to Dr. Khatri, we should consider a
plaintiff ’s prisoner status only at the time of the initial
complaint because: (1) an individual’s confinement status might change during the course of the litigation;
(2) looking to confinement status at the time of the initial filing serves judicial economy; and (3) a contrary
conclusion would “provide[ ] a loophole to the Statute
which was not intended by Congress,” Khatri Supp. Br.
22; see also Harris v. Garner, 216 F.3d 970, 981 (11th
Cir. 2000) (en banc) (“[T]he intent of Congress . . . was
to reduce the number of prisoner lawsuits filed.”).
The problem with these arguments is that they
are the sort of “perceived policy concerns” that the Supreme Court has directed cannot dictate whether we
apply the usual pleading rules.24 See Bock, 549 U.S. at
24

The changing of a plaintiff ’s status is less a policy concern
than a practical administrative consideration. But it seems to us

App. 35
212 (“In a series of recent cases, we have explained that
courts should generally not depart from the usual
practice under the Federal Rules on the basis of perceived policy concerns.”). Absent an explicit or implicit
justification contained in the PLRA itself for deviating
from the usual procedural practice under Rule 15, Bock
directs that we must set aside such concerns. See id. at
212-14.
E.
In support of their view that we should affirm the
District Court’s judgment, the Medical Defendants
rely primarily on the “express language of the PLRA”—
namely, its “[n]o action shall be brought” language.
Khatri Supp. Br. 16. But, as we have discussed, the
Supreme Court has indicated that this language is
“boilerplate” and does not compel a conclusion that
the usual procedural rules no longer apply. Bock, 549
U.S. at 220. The Medical Defendants point to nothing
within the language of the PLRA directing a deviation
from the usual operation of Rule 15. See Bock, 549 U.S.
at 214.
Also in support of their view, the Medical Defendants rely on Ahmed, arguing that Garrett’s release
does not free him from application of the PLRA, including its exhaustion requirement. They cite Ahmed for
a general proposition that a released prisoner cannot
a fairly straightforward exercise to assess an individual’s status
as a prisoner or non-prisoner—and hence the applicability of the
PLRA—as of the time of an amended or supplemental pleading.

App. 36
employ Rule 15 to show that his release renders the
PLRA inapplicable. But as we have already discussed,
their argument erroneously extends Ahmed beyond its
post-judgment posture and puts it in tension with the
Supreme Court’s opinion in Bock. We cannot agree
with this interpretation.
The Medical Defendants also point to the Eleventh
Circuit’s decision in Harris v. Garner, 216 F.3d at 970.
There, a group of inmates filed a civil suit under the
PLRA but, by the time the District Court entered judgment, more than half of the plaintiffs had been released. The question before the Harris Court was
whether the PLRA’s provision stating that “[n]o Federal civil action may be brought by a prisoner . . . without a prior showing of physical injury,” 42 U.S.C.
§ 1997e(e), continued to apply to the released prisoners.
The Eleventh Circuit concluded that the PLRA’s
“[n]o . . . action may be brought” language refers specifically and exclusively to the initial commencement
of the lawsuit. Harris, 216 F.3d at 974. The released
prisoners did not properly file an amended or supplemental complaint to reflect their release, but the Harris Court held that an amendment or supplement
would have made no difference because “the confinement status of the plaintiffs at any time after the lawsuit is filed is beside the point.” Id. at 981.
According to the Eleventh Circuit, its interpretation of the PLRA is consistent with Rule 15:

App. 37
In proper circumstances and when the requirements contained in Rule 15 are met, the
rule does permit amendments or supplements
to pleadings in order to bring to the attention
of the court changes in the facts, but other
law—in this instance [the PLRA]—determines
whether those changes in the facts make any
difference.25
Id. at 982. But because the point of reference is the
time of the original filing, ostensibly curative Rule 15
amendments or supplements are irrelevant to the viability of the suit.
We decline to adopt the Eleventh Circuit’s analysis. Harris, which was decided prior to the Supreme
Court’s decision in Bock, purports to rely on the “plain
and ordinary meaning” of the language of the PLRA—
namely, the “[n]o . . . action may be brought” language.
Id. at 974. In Bock, the Supreme Court described the
nearly identical language of the PLRA’s exhaustion
provision as “boilerplate language” that should not
“lead to the dismissal of an entire action if a single
25

Indeed, the Harris Court observed that, if the PLRA conflicts with Rule 15, then “the rule would have to yield to the laterenacted statute to the extent of the conflict.” 216 F.3d at 982. We
agree with this basic principle, which is consistent with the Supreme Court’s decision in Bock. See Bock, 549 U.S. at 216 (“[W]hen
Congress meant to depart from the usual procedural requirements, it did so expressly.”). We do not share the Eleventh Circuit’s view, however, that the PLRA expressly overrides Rule 15
with regard to the administrative exhaustion requirement. Such
a conclusion, in our view, stands in tension with Bock and its
characterization of the “[n]o action shall be brought” phrase as
“boilerplate language.” Id. at 220.

App. 38
claim fails to meet the pertinent standards.” Bock, 549
U.S. at 220. Applying Bock, as we must, we cannot
agree with the Eleventh Circuit’s interpretation. The
PLRA is not sufficiently plain in its meaning to override the usual operation of Rule 15. See id. at 214.
In sum, we conclude that there is nothing in the
PLRA to indicate that a plaintiff cannot employ Rule
15 to file a supplemental pleading to cure an initial
filing defect. Because Garrett filed the TAC as a nonprisoner, administrative exhaustion was not an appropriate basis for its dismissal. We will therefore vacate
the District Court’s dismissal of Garrett’s claims against
the Medical Defendants for failure to exhaust administrative remedies.
III.
We turn next to Garrett’s claims in the FAC
against the Corrections Defendants, which the District
Court dismissed for failure to satisfy Rule 8. We review
the dismissal for abuse of discretion.26 In re Westinghouse Sec. Litig., 90 F.3d 696, 702 (3d Cir. 1996); Davis
v. Ruby Foods, Inc., 269 F.3d 818, 820 (7th Cir. 2001);
26

Garrett asserts that we should conduct a de novo review of
whether the District Court applied the proper liberal pleading
standard to Garrett’s FAC. Higgs v. Att’y Gen., 655 F.3d 333, 339
n.6 (3d Cir. 2011). He is wrong. The District Court correctly identified the liberal construction standard applicable to Garrett’s pro
se pleadings. See Erickson v. Pardus, 551 U.S. 89, 94 (2007) (per
curiam). We therefore consider whether the District Court abused
its discretion in applying that standard, not the legal question of
whether the District Court employed the correct standard in the
first instance.

App. 39
5 C. Wright & A. Miller, Federal Practice and Procedure
§ 1217 (3d ed. 2019).
In conducting our review, we must keep in mind
the principles that guide the exercise of that discretion.
At the outset, we recognize that the decision to dismiss
a complaint should not be entered lightly because it
“forecloses inquiry into the merits.” Schaedler v. Reading Eagle Publ’n, Inc., 370 F.2d 795, 798 (3d Cir. 1967).
We also note that it is an abuse of discretion to dismiss
an entire complaint if it contains some claims that satisfy Rule 8. See Frazier v. Se. Pa. Transp. Auth., 785 F.2d
65, 68 (3d Cir. 1986), abrogated on other grounds by
Leatherman v. Tarrant Cty. Narcotics Intelligence & Coordination Unit, 507 U.S. 163 (1993) and Swierkiewicz
v. Sorema N.A., 534 U.S. 506 (2002) (reversing the dismissal of the entire complaint as “broad and conclusory” where the complaint set forth four claims with
adequate specificity). Perhaps most importantly here,
we recognize that Garrett was proceeding without the
assistance of counsel at the time he filed the FAC.
“Pleadings must be construed so as to do justice.”
Fed. R. Civ. P. 8(e). This already liberal standard is
“even more pronounced” where a plaintiff files the complaint without the assistance of counsel. Erickson v.
Pardus, 551 U.S. 89, 94 (2007) (per curiam); Alston v.
Parker, 363 F.3d 229, 234 (3d Cir. 2004); Schaedler, 370
F.2d at 798. Courts are more forgiving of pro se litigants for filing relatively unorganized or somewhat
lengthy complaints. Wright & Miller, supra, § 1217.
This practice is driven by an understanding that a
court must make reasonable allowances to protect pro

App. 40
se litigants from the inadvertent forfeiture of important rights due merely to their lack of legal training. See Higgs v. Att’y Gen., 655 F.3d 333, 339 (3d Cir.
2011).
Ultimately, the question before us is not whether
we might have chosen a more lenient course than dismissal in the first instance, but rather whether the
District Court abused its discretion in ordering the dismissal. Westinghouse, 90 F.3d at 702.
A.
Rule 8 imposes “minimal burdens on the plaintiff
at the pleading stage.” Frazier, 785 F.2d at 67. Under
Rule 8(a)(2), a complaint need only contain “a short
and plain statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). Further, Rule 8(d)(1) provides that “[e]ach allegation must
be simple, concise, and direct.” Fed. R. Civ. P. 8(d)(1).
Fundamentally, Rule 8 requires that a complaint provide fair notice of “what the . . . claim is and the grounds
upon which it rests.” Erickson, 551 U.S. at 93 (quoting
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007)).
The rule “ensure[s] that claims [are] not filtered for
merit at the pleading stage, but [are] determined on
their merits rather than through missteps in pleading.” J. Moore, 2 Moore’s Federal Practice § 8.04[1][a]
(3d ed. 2019).
To satisfy the rule, a complaint must make a showing sufficient to justify moving past the pleading stage.
Phillips v. Cty. of Allegheny, 515 F.3d 224, 234-235 (3d

App. 41
Cir. 2008). “[T]his obligation is not burdensome, but it
is nonetheless an essential obligation.” Allan Ides, Bell
Atlantic and the Principle of Substantive Sufficiency
Under Federal Rule of Civil Procedure 8(a)(2): Toward
a Structured Approach to Federal Pleading Practice,
243 F.R.D. 604, 609 (2006). The claim must have “facial
plausibility,” which means that the “plaintiff [must]
plead[ ] factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009). Conclusory allegations of liability are
insufficient. See id. at 678-79 (“Rule 8 . . . does not unlock the doors of discovery for a plaintiff armed with
nothing more than conclusions.”). Rule 8 thus requires
that the pleading “possess enough heft” to demonstrate
an entitlement to relief. Bell Atlantic, 550 U.S. at 557.
In assessing whether a pleading satisfies Rule 8,
there is no bright-line rule to be applied. “Inevitably,
the sufficiency of a complaint must be determined on a
case-by-case basis.” Frazier, 785 F.2d at 68. The circumstances surrounding the particular pleading, including
the nature of the action, the sort of relief being sought,
the availability of information, and other practical considerations must guide the inquiry into whether the
litigant’s statement of his claim qualifies as “short and
plain.” See Wright & Miller, supra, § 1217. Put simply,
“judging the sufficiency of a pleading is a context-dependent exercise.” W. Penn Allegheny Health Sys., Inc.
v. UPMC, 627 F.3d 85, 98 (3d Cir. 2010); see also Sweda
v. Univ. of Pa., 923 F.3d 320, 326 (3d Cir. 2019) (Rule 8
“operate[s] with contextual specificity.”).

App. 42
B.
We first consider Rule 8’s “short” statement requirement. Certainly, there can be no single “proper
length” for stating a particular claim. The level of factual detail will vary with the complexity of the claim
asserted. Moore, supra, § 8.04[1][d]. But a district
court acts within its discretion when it dismisses an
excessively prolix and overlong complaint, particularly
where a plaintiff declines an express invitation to better tailor her pleading. For instance, in Westinghouse,
we concluded that the District Court properly exercised its discretion in dismissing counsel’s 240-page,
600-paragraph complaint that included a 50-plus-page
“overview” of the allegedly wrongful conduct. 90 F.3d
at 703. We observed that the Westinghouse complaint
was “unnecessarily complicated and verbose.” Id. And
notably, the District Court had not dismissed the complaint outright, but rather directed the plaintiffs to
submit a third amended complaint “containing only
those allegations relevant to what were, in the court’s
view, the remaining viable claims.” Id. We viewed the
District Court’s actions as “mak[ing] a tremendous
amount of sense” given the state of the original complaint and Rule 8’s goal of encouraging litigation on the
merits, even though the plaintiffs had declined the opportunity to amend. Id.
Next, we turn to the “plain” statement requirement, which prompts us to ask whether, liberally construed, a pleading “identifies discrete defendants and
the actions taken by these defendants” in regard to the
plaintiff ’s claims. See Harnage v. Lightner, 916 F.3d

App. 43
138, 141 (2d Cir. 2019) (per curiam). Naturally, a pleading that is so “vague or ambiguous” that a defendant
cannot reasonably be expected to respond to it will not
satisfy Rule 8. Schaedler, 370 F.2d at 799; see also Simmons v. Abruzzo, 49 F.3d 83, 86 (2d Cir. 1995). And, of
course, “[t]he dismissal of a complaint on the ground
that it is unintelligible is unexceptional” because it
cannot satisfy the basic notice function of a pleading.
Ruby Foods, 269 F.3d at 820 (citing Salahuddin v.
Cuomo, 861 F.2d 40, 42 (2d Cir. 1988)).
A statement of a claim may be “plain” even if it
does not include every name, date, and location of the
incidents at issue. See Frazier, 785 F.2d at 68 (“While
plaintiffs may be expected to know the injuries they
allegedly have suffered, it is not reasonable to expect
them to be familiar at the complaint stage with the full
range of the defendants’ practices under challenge.”);
see also Harnage, 916 F.3d at 142 (“[T]he failure to allege specific dates does not necessarily run afoul of
Rule 8, especially where . . . the plaintiff lacks ready
access to his medical records.”). Missing details or superfluous material do not necessarily render a complaint
unintelligible. Indeed, even if it is vague, repetitious, or
contains extraneous information, a pro se complaint’s
language will ordinarily be “plain” if it presents cognizable legal claims to which a defendant can respond
on the merits. Alston, 363 F.3d at 234; Bethea v. Reid,
445 F.2d 1163, 1165 (3d Cir. 1971); see also Ruby Foods,
269 F.3d at 820 (pro se complaint, though prolix, “appears to state a claim that would withstand challenge
under Fed. R. Civ. P. 12(b)(6)”); Simmons, 49 F.3d at

App. 44
87-88 (concluding that “[t]hough perhaps some details
[were] lacking” and “extraneous details” were included,
“it [was] evident that defendants understood the nature of Simmons’s claims” based on their response to
it).
Paying heed to the foregoing principles, the Seventh Circuit has held that a district court abuses its
discretion when a pro se complaint is dismissed
“merely because it contains repetitious and irrelevant
matter,” so long as that “disposable husk [surrounds]
. . . a core of proper pleading.”27 Ruby Foods, 269 F.3d
at 820. Similarly, the Second Circuit has held that dismissal of pro se complaints “is usually reserved for
those cases in which the complaint is so confused, ambiguous, vague, or otherwise unintelligible that its true
substance, if any, is well disguised.” Salahuddin, 861
F.2d at 42.
C.
It is apparent that the District Court abused its
discretion in ordering dismissal here. The claims in
Garrett’s pro se FAC are sufficiently “short” and “plain,”
and the FAC adequately puts a number of the defendants on notice of Garrett’s claims and makes a sufficient showing of enough factual matter (when taken as
27

The Seventh Circuit recognized that this proposition is not
without limits, implicitly acknowledging that burying a claim in
an excessively lengthy complaint may violate Rule 8. It therefore
indicated its agreement with our Court’s dismissal of the 240page complaint in Westinghouse. Ruby Foods, 269 F.3d at 821.

App. 45
true) to plausibly suggest that Garrett can satisfy the
elements of his § 1983 claims. See Phillips, 515 F.3d at
235.
Obviously, the 15-page FAC is drastically shorter
than the 240-page complaint that was properly dismissed in Westinghouse, and shorter than even the 20page complaint that survived dismissal in Ruby Foods.
It is apparent that Garrett followed the Magistrate
Judge’s instruction that his TAC had been too lengthy
(the FAC is less than half the TAC’s length because
Garrett trimmed approximately 20 pages from it).
Under § 1983, a plaintiff must plead a deprivation
of a constitutional right by a person acting under the
color of state law. See Morse v. Lower Merion Sch. Dist.,
132 F.3d 902, 907 (3d Cir. 1997). In the FAC, Garrett
claims that the Corrections Defendants violated the
Constitution by being deliberately indifferent to his serious medical needs and by retaliating against him.
Garrett provides factual allegations setting forth particularized descriptions of actions taken by several of
the individual defendants that plausibly support these
claims, including:
•

“On April 1, 2014, Plaintiff was being escorted
by another inmate along the walkway, when
Sgt. Woomer and Unit Manager Defelice told
the inmate not to help or assist the Plaintiff. . . . As Plaintiff attempted to comply and
return without any assistance, Plaintiff eventually collapsed, striking the ground hard.
Sgt. Woomer witnessed this, and told plaintiff
to ‘crawl like a dog.’ ” JA 353.

App. 46
•

“On April 24, 2014, 8:00 pm, Officer Hunt used
Official Oppression and the intimidation of a
witness. Officer Hunt called plaintiff [racial
slur] and threatened to block card him if he
was seen having an inmate assist him.” JA
355.

•

“On May 11, 2014. Plaintiff had experienced
chest and back pain and could not stand for
count. Plaintiff informed Block C.O. McClellan, who in turn notified the medical department. It took them 75 mins to respond. Nurse
Rich arrived with a wheelchair at FA-Unit cell
6. Nurse Rich stated that they were going to
intentionally alter his medical file, and he
would be returned to the housing unit.” JA
354.

•

“On May 11, 2014 Plaintiff ’s medical file was
altered, ECG reports were destroyed by Nurse
Barnes. Plaintiff suffered disregard for his
health and safety as well as the ignoring of a
serious medical need had been shown.” JA
355.

•

“On June 15, 2014 between 1:30 and 2:00 pm,
Sgt. James came to cell 6 and opened the door
while Plaintiff was sleeping. Plaintiff ’s cell
mate . . . witnessed Sgt. James slap Plaintiff
in the chest as he was sleeping. Sgt. James[’s]
demeanor and behavior was vindictive, and he
told the Plaintiff the misconduct from earlier.
This action was caught on surveillance cameras aimed at cell 6.” JA 355.

•

“On July 9, 2014 Plaintiff suffered a fall in the
all-metal accessible shower because he was

App. 47
denied his assistive devices. Officers McClellan, Hunt, Sgt. Young, and unit manager Barber did not allow Plaintiff to use the
handicapped accessible shower facility.” JA
355.
Notwithstanding their argument that Garrett’s
FAC was deficient, the Corrections Defendants nevertheless respond to the merits of several of his claims in
their appellate brief. They argue, for instance, that
Woomer and DeFelice “cannot be faulted for following
doctor’s orders,” Hunt and Woomer cannot be held liable because insults and epithets are “not actionable under Section 1983,” and Nurse Barnes can be accused
of nothing more than medical malpractice in administering the EKG. Corr. Def. Supp. Br. 21-23. Similarly,
they contend that Garrett’s fall in the shower does not
plausibly rise to the level of a constitutional violation
because it is “actionable, at best, as a slip and fall negligence case sounding in tort.” Id. at 24. Without addressing the validity of the Corrections Defendants’
arguments,28 we believe their brief demonstrates that
it was possible to understand and engage with Garrett’s claims on their merits. See Ruby Foods, 269 F.3d
at 820 (suggesting that any claim that may survive a

28

The Corrections Defendants did not move in the District
Court to dismiss pursuant to Rule 12(b)(6) of the Federal Rules of
Civil Procedure, and never otherwise presented these meritsbased arguments. Accordingly, we will not address them in the
first instance on appeal. See Tri-M Group, LLC v. Sharp, 638 F.3d
406, 416 (3d Cir. 2011) (generally, an argument not presented to
a district court in the first instance will not be considered).

App. 48
Rule 12(b)(6) challenge meets the pleading requirements of Rule 8).
We also observe that two of these claims (the June
15, 2014 slap on the chest and the July 9, 2014 fall in
the shower) were administratively exhausted within
the prison grievance system before Garrett filed the
FAC. Garrett used similar descriptions in the FAC to
those in his prison grievances. Tellingly, the Grievance
Officer was able to discern Garrett’s claims and to pass
upon their merits. When the same claims appeared
in Garrett’s FAC, the Corrections Defendants should
have likewise been able to understand them and formulate a substantive response.
The Corrections Defendants contend that we should
uphold the District Court’s Rule 8 dismissal because
Garrett previously had been given several opportunities to amend. They argue that Garrett is “incapable or
not willing to abide by the Court’s instructions.” Corr.
Def. Supp. Br. 26. We disagree. It is apparent that Garrett made a genuine effort to revise his FAC to respond
to the Magistrate Judge’s critique of the TAC. This is
simply not a case in which leave to amend was previously given and the successive pleadings “remain
prolix and unintelligible.” See Salahuddin, 861 F.2d
at 42.
D.
In conclusion, there are claims in Garrett’s pro se
FAC against the Corrections Defendants that satisfy
the “short and plain statement” requirement. Fed. R.

App. 49
Civ. P. 8(a)(2). While the complaint is far from perfect,
we cannot agree with the Magistrate Judge’s assessment, adopted by the District Court, that “Plaintiff ’s
factual and legal allegations are, to a substantial extent, incomprehensible” and that the FAC contains
“virtually no detail as to who did what and when.” JA
22.
We are always mindful that the abuse of discretion
standard of review is highly deferential. And we are
not unsympathetic to the difficulties and frustrations
the Magistrate Judge experienced in managing a case
that involved various iterations of a complaint. Yet
we simply cannot conclude that the District Court’s
sweeping dismissal of all the claims in the FAC was a
proper exercise of discretion. We will therefore vacate
and remand the matter for further proceedings.29
29

Our conclusion that the District Court erred by dismissing
the FAC under Rule 8 should not be construed as a determination
on our part that there are no appropriate bases for dismissal of
some or all of the claims against the Corrections Defendants in
the FAC. For instance, if certain defendants were not timely
served, the claims against them might properly be subject to dismissal under Rule 4(m). In addition, there may be valid arguments that Garrett has failed to state a claim against some or
all of the Corrections Defendants, and so dismissal under Rule
12(b)(6) could be warranted. Finally, it is possible that Rule 8
might be employed surgically as to certain specific defendants if
no “short and plain” statement of a claim is discernable. Yet here,
because it was an abuse of discretion to dismiss all of the claims
against the Corrections Defendants for failure to comply with
Rule 8 when it is apparent that some claims satisfy the rule, we
will vacate the dismissal and remand to the District Court to carefully consider those possibilities if and when they have been
properly presented and briefed by the parties.

App. 50
IV.
For all of the reasons discussed, we will vacate the
dismissal of the claims against the Medical Defendants for failure to exhaust administrative remedies,
and the dismissal of the claims against the Corrections
Defendants for failure to comply with Rule 8. We will
remand the matter for further proceedings consistent
with this opinion.

App. 51
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF PENNSYLVANIA
KAREEM GARRETT,
Plaintiff,
v.
WEXFORD HEALTH,
ET AL
Defendants.

)
)
)
)
)
)
)
)

Civil Action No.
3:14-cv-00031
United States District Judge
Kim R. Gibson

MEMORANDUM ORDER
(Filed Oct. 11, 2017)
This case was commenced on February 2, 2014,
and was referred to United States Magistrate Judge
Cynthia Reed Eddy for pretrial proceedings in accordance with the Magistrate Judges Act, 28 U.S.C.
§ 636(b)(1), and the Local Rules of Court for Magistrate Judges. The Report and Recommendation (ECF
No. 243) details the long procedural history.
The pertinent facts are as follows. In February of
2016, Plaintiff filed a Third Amended Complaint. (ECF
No. 180). Defendants Khatri and the Medical Defendants each filed a motion to dismiss arguing that the
Third Amended Complaint should be dismissed as
Plaintiff had failed to exhaust his administrative remedies. Because Defendants Khatri and the Medical Defendants had presented materials outside of the Third
Amended Complaint, the motions were converted into

App. 52
motions for summary judgment on the issue of exhaustion only. The DOC Defendants filed a motion to dismiss and/or motion for more definite statement.
After briefing, the magistrate judge filed a Report
and Recommendation on September 9, 2016, recommending that the motions for summary judgment filed
by Defendants Khatri and the Medical Defendants be
granted as Plaintiff had failed to exhaust his administrative remedies. The report further recommended
that the DOC Defendants’ motion for more definite
statement be granted and Plaintiff be given an opportunity to amend his claims against the DOC Defendants only. (ECF No. 209). Plaintiff was advised that
objections to the Report and Recommendation were
due by August 2, 2016. No objections were filed and the
undersigned on September 9, 2016, granted the motions for summary judgment filed by Defendants
Khatri and the Medical Defendants and granted the
DOC Defendants’ motion for more definite statement.
(ECF Nos. 212 and 213). On that same day, judgment
was entered pursuant to Rule 58 of the Federal Rules
of Civil Procedure in favor of Defendants Khatri and
the Medical Defendants. (ECF No. 214).
On November 21, 2016, Plaintiff filed his Fourth
Amended Complaint. (ECF No. 218). Despite the
Court’s Order which granted leave to amend the complaint only as to the DOC Defendants, Plaintiff again
named Defendants Khatri and the Medical Defendants, as well as the DOC Defendants.

App. 53
Defendants filed separate motions to dismiss: Defendant Khatri (ECF No. 225), the Medical Defendants
(ECF No. 228), and the DOC Defendants (ECF No.
229). On June 12, 2017, Magistrate Judge Eddy filed a
Report and Recommendation (ECF No. 243). The report and recommendation noted that judgment previously had been granted to Defendants Khatri and the
Medical Defendants, but to the extent that it was necessary to rule on the pending motions, the magistrate
judge adopted and incorporated by reference the analysis and rationale in the previous Report and Recommendation (ECF No. 209) and the Memorandum
Opinion and Order adopting the Report and Recommendation (ECF Nos. 212 and 213) and again recommended that Defendants Khatri and the Medical
Defendants be dismissed based on Plaintiff ’s failure to
exhaust administrative remedies. The report and recommendation also recommended that the DOC Defendants’ motion to dismiss be granted as Plaintiff, had
once again, failed to comply with Rule 8, as the Fourth
Amended Complaint was 16 single-spaced typewritten
pages, utilizing small font, and contained approximately 40 paragraphs. It appeared that Plaintiff had
sued almost every staff member he came in contact
with and lumped them together in bald, conclusory,
rambling allegations that offered no specifics and few
dates. (ECF No. 243).
Plaintiff was advised that objections were due
by June 29, 2017. On July 18, 2017, again without
objections being filed, the undersigned granted the
motions to dismiss and adopted the report and

App. 54
recommendation as the Opinion of the Court. (ECF No.
244). On July 24, 2017, Plaintiff called the Chambers
of Magistrate Judge Eddy and stated that since May of
2017 he had not received any documents from this
case. A month later, on August 21, 2017, he filed a motion for reconsideration (ECF No. 245) and contemporaneously therewith filed a notice of appeal. (ECF No.
246).
On August 24, 2017, the Court granted the motion
for reconsideration and vacated its Memorandum Order of July 18, 2017 and directed the Clerk of Court to
reopen the case for the limited purpose of allowing
Plaintiff the opportunity to file objections to the Report
and Recommendation. (ECF No. 247). Thereafter,
Plaintiff filed timely objections (ECF No. 249) and the
Medical Defendants filed a response. (ECF No. 251).
The matter is now ripe for determination.
Where, as here, objections have been filed, the
court is required to make a de novo determination
about those portions of the R&R to which objections
were made. See 28 U.S.C. § 636(b)(1); Fed.R.Civ.P.
72(b). The district court may accept, reject, or modify
the recommended disposition, as well as receive further evidence or return the matter to the magistrate
judge with instructions.
The Court finds that Plaintiff ’s objections to not
undermine the recommendation of the Magistrate
Judge. Plaintiff is proceeding pro se and such parties
are accorded substantial deference and liberality in
federal court. Erickson v. Pardus, 551 U.S. 89 94 (2007);

App. 55
Haines v. Kerner, 404 U.S. 519 (1972). However, pro se
litigants, whether incarcerated or not, are not free to
ignore the Federal Rules of Civil Procedure. In this
case, dismissal of Plaintiff ’s fourth amended complaint
is warranted because, like his previous complaints, it
defies the basic pleading requirements of the Federal
Rules. Furthermore, it is clear that Plaintiff is unable
to conform his pleadings to the requirements set by the
law and dismissal of this action without further leave
to amend is now necessary.
Federal Rule of Civil Procedure 8(a) requires a
pleading to contain “a short and plain statement of the
grounds for the court’s jurisdiction” and “a short and
plain statement of the claim showing that the pleader
is entitled to relief.” Each averment must be “simply,
concise, and direct.” FRCP 8(d)(1) “Taken together,”
Rules 8(a) and 8(d)(1), “underscore the emphasis
placed on clarity and brevity by the federal pleading
rules.” In re Westinghouse Sec. Litig., 90 F.3d 696, 702
(3d Cir. 1996) (citation omitted). See also Washington v.
Warden SCI-Greene, No. 14-1880, slip op. (3d Cir. June
18, 2015).
As explained in the report and recommendation,
the allegations contained in Plaintiff ’s fourth amended
complaint are anything but “simple, concise, and direct.” In fact, the factual and legal allegations are incomprehensible. The pernicious effects of such a
complaint are obvious.
Plaintiff has been given numerous opportunities
and granted extensions of time to file an adequate

App. 56
complaint that complies with the Federal Rules. He
has been instructed on how to do so and warned that
his failure to comply with the Court’s instructions
would result in dismissal of any such complaint. Plaintiff is either incapable or not willing to abide by the
Court’s instructions.1 It has been over three and a half
years since Plaintiff commenced this lawsuit and the
case has yet to proceed beyond the motions to dismiss
stage. The Court has come to the conclusion that giving
Plaintiff another opportunity to amend would be prejudicial to the interests of justice.
After de novo review of the pleadings and documents in the case, together with the Report and Recommendation, and the Objections thereto, the
following order is entered:
AND NOW, this 11th day of October, 2017:
1. Defendant Khatri’s motion to dismiss (ECF
No. 225) is GRANTED;
2. The Medical Defendants’ motion to dismiss
(ECF No. 227) is GRANTED; and

1

In the instant objections, Plaintiff states that he “appears
to be illiterate, and reasonably incapable of understanding the intricacies of the legal system.” He asks the Court to consider that
he has “both a physical and mental impairment” and “has been
on disability since his release.” Pl’s Obj. at ¶¶ 2 and 3. However,
the Court notes that Plaintiff is not alleging that he is mentally
incompetent, nor has he presented certifiable evidence, nor is the
Court aware of any such evidence of mental incompetency. See
Powell v. Symons, 680 F.3d 201 (3d Cir. 2011).

App. 57
3. The DOC Defendants’ motion to dismiss (ECF
No. 229) is GRANTED.
4. IT IS FURTHER ORDERED that the Report and Recommendation (ECF No. 243) dated June
12, 2017, is ADOPTED as the Opinion of the Court.
IT IS FURTHER ORDERED that the Clerk of
Court mark this case CLOSED.
AND IT IS FURTHER ORDERED that pursuant to Rule 4(a)(1) of the Federal Rules of Appellate
Procedure, Plaintiff has thirty (30) days to file a notice
of appeal as provided by Rule 3 of the Federal Rules of
Appellate Procedure.
BY THE COURT:
/s/ Kim R. Gibson
Kim R. Gibson
United States District Judge
cc: KAREEM GARRETT
14 E. Albemarle Ave. 1st Floor
Lansdowne, PA 19050
(via U.S. First Class Mail)
All counsel of record
(via ECF electronic notification)

App. 58
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF PENNSYLVANIA
KAREEM GARRETT,
Plaintiff,
v.
WEXFORD HEALTH,
et al,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action No.
3:14-cv-00031
United States District Judge
Kim R. Gibson
United States Magistrate
Judge
Cynthia Reed Eddy

REPORT AND RECOMMENDATION
(Filed Jun. 12, 2017)
I.

RECOMMENDATION

It is respectfully recommended that the motions to
dismiss filed by Defendant Khatri (ECF No. 225), the
Medical Defendants1 (ECF No. 227), and the DOC Defendants2 (ECF No. 229) be granted.
1

The Medical Defendants which have been served are Dr.
Muhammad Naji, Deborah Cutshall, Casey Thornley, P.A., and
Patrick Joseph Nagel, P.A.
2
The DOC Defendants which have been served are Debra J.
Younkin, Janet Pearson, Steven Glunt, Nurse Lori, Nurse Debbie, Nurse Rodger, Nurse John, Nurse Hanna, Superintendent K.
Cameron, Deputy Superintendent David Close, Deputy Superintendent (Security) K. Hollinbaugh, Doretta Chencharisk, Joel
Barrows, James Morris, Peggy Bauchman, Tracey Hamer, Captain Brumbaugh, Captain Miller, Lt. Shea, Lt. Horton, Lt. Lewis,
Lt. Glass, L.S. Kerns-Barr, F. Nunez, Jack Walmer, M.J. Barber,
Mr. Shetler, Ms. Cogan, Mr. Little, Sgt. Snipes, Sgt. James, Sgt.

App. 59
II.

REPORT
A. Relevant and Material Facts

Although this case has a long procedural history,
it has never proceeded beyond the motion to dismiss
stage. Plaintiff, Kareem Garrett, commenced this action on February 2, 2014, by filing a complaint in the
United States District Court for the Middle District of
Pennsylvania. At the time the complaint was filed,
Plaintiff was an inmate in the Pennsylvania Department of Corrections.3 Named as defendants were Wexford Health, Medical Director Dr. Naji; Nurse Debra
Younkin; Nurse Supervisor Janet Pearson; PHS Administrator Deb Cutshall; Psychiatrist Dr. Khatri; and
Superintendent Steven Glunt. Plaintiff alleged that
he was transferred to SCI-Houtzdale from SCIGraterford on January 9, 2014, and that following his
arrival his previously prescribed wheelchair, walker,
and psych medication were improperly discontinued.
Plaintiff also contended that he was denied meals. Because venue was not proper in the Middle District, the
case was transferred on February 24, 2014, to the
Western District of Pennsylvania. (ECF No. 6).
On March 14, 2014, prior to Plaintiff submitting
any service papers, he filed an amended complaint,
adding approximately 20 additional SCI-Houtzdale
staff members, including Deputies, Unit Managers,
Young, Medical Officer London, Medical Officer Owens, Officer
Garvey, and Officer Uncles.
3
Plaintiff was released on parole after the filing of this lawsuit. (ECF No. 152).

App. 60
Counselors, Majors, hearing examiners and the Grievance Coordinator. (ECF No. 10, ¶¶ 21, 34, 35). Four
days later, on March 18, 2014, the Plaintiff filed a motion to amend/correct the complaint (ECF No. 14),
which the Court granted. On June 3, 2014, Plaintiff
filed a “second” amended complaint, which was served
on defendants. In the second amended complaint,
Plaintiff named more than 40 defendants, and the
number of DOC defendants grew to approximately 37,
although the allegations in the body of the second
amended complaint only referred to 9 individuals. All
served defendants filed a motion to dismiss. After being granted a number of extensions of time in which to
file a response to the pending motions to dismiss, on
December 18, 2014, Plaintiff moved to stay the case
based upon the fact that he was expecting to be released on parole by March 2015, at which point he
claimed he would have the resources to retain counsel.
(ECF No. 130). The undersigned granted the motion
and administratively closed the case until May 15,
2015. Plaintiff was informed that if he did not file a
response to the motions to dismiss by May 15, 2015, it
would be recommended that the case be dismissed for
lack of prosecution. Over the next twelve months,
Plaintiff filed numerous motions and extensions of
time to respond. The stay was lifted on July 16, 2015.
Plaintiff was ordered to file responses to the outstanding motions to dismiss by August 17, 2015. However,
Plaintiff sought yet again another extension. The request was granted and Plaintiff ordered to file his response by December 7, 2015.

App. 61
On January 22, 2016, Plaintiff filed a motion for
leave to file a Third Amended Complaint. The Third
Amended Complaint exceeded 90 paragraphs and was
over 36 pages. Plaintiff added at least 20 new defendants, none of whom was served. (ECF No. 180). The
focus of the Third Amended Complaint continued to be
the alleged denial of adequate health care. All defendants filed motions to dismiss. Both Dr. Khatri and the
Medical Defendants argued that the complaint should
be dismissed as Plaintiff failed to exhaust his administrative remedies. The DOC Defendants argued that
the complaint should be dismissed for failure to state
a claim and/or motion for more definite statement.
Because Defendant Khatri and the Medical Defendants presented material outside of the Third
Amended Complaint, the Court converted their motions to dismiss into motions for summary judgment
on the issue of exhaustion only and allowed the parties
time to submit additional briefing and evidence. On
July 14, 2016, the undersigned issued a Report and
Recommendation recommending that the motions to
dismiss filed by Defendant Khatri and the Medical Defendants, which had been converted to motions for
summary judgment, be granted on the issue of exhaustion and the DOC Defendants’ motion for more definite
statement be granted. On September 9, 2016, Judge
Gibson adopted the Report and Recommendation, and
judgment was entered pursuant to Rule 58 of the Federal Rules of Civil Procedure in favor of Defendant
Khatri and the Medical Defendants. (ECF No. 214).
Plaintiff was “given one final opportunity to amend his

App. 62
complaint and claims against the DOC.” (emphasis
added). Plaintiff was explicitly instructed that the
amended complaint must comply with Rule 8, in that
it must set forth the causes of action against each defendant and the dates on which the conduct at issue
occurred. The Court also warned against adding parties or claims and specifically stated:
Plaintiff should also be reminded that all
claims pertaining to the denial of medical care
and related medical services have been dismissed for failure to exhaust. Further, Plaintiff is cautioned that his claims against the
DOC Defendants may be subject to dismissal
for failure to exhaust if he failed to exhaust
those claims prior to bringing this lawsuit.4
(ECF No. 209 at 9) (emphasis added).
After yet again another extension of time, Plaintiff
filed his Fourth Amended Complaint on November 21,
2016. (ECF No. 218). The Fourth Amended Complaint
raises the same allegations about denial of medical
care, which the Court had previously dismissed. Additionally, completely disregarding the fact that judgment had been granted in favor of Defendant Khatri
and the Medical Defendants, Plaintiff named these
defendants again and asserted the same allegations
4

The DOC defendants had not raised failure to exhaust as a
basis for their motion to dismiss the third amended complaint.
Because failure to exhaust is an affirmative defense, the Court
could not sua sponte assert such a defense on behalf of the DOC
defendants.

App. 63
against them. And despite the Court’s admonition that
his claims against the remaining DOC defendants
needed to be set forth in short and plain statements
identifying the person and the dates on which the conduct at issue occurred, Plaintiff again provided virtually no detail as to who did what and when. Moreover,
Plaintiff asserts new claims and references individuals
who were never served.
All three groups of defendants have again filed
separate motions to dismiss, to which Plaintiff has responded. (ECF Nos. 236, 237, 238, 239, 240, 241). Defendant Khatri filed a Reply Brief. (ECF No. 242). The
matters are now ripe for disposition.
B. Discussion
1. The Motions to Dismiss filed by Defendant Khatri and the Medical Defendants
On September 9, 2016, judgment was entered in
favor of these defendants based on Plaintiff ’s failure to
exhaust his administrative remedies. Further, Plaintiff
was granted leave to amend his complaint only against
the DOC defendants. The Order did not provide Plaintiff with the opportunity to amend his complaint as to
Defendant Khatri and/or the Medical Defendants. Accordingly, these defendants were improperly named in
the Fourth Amended Complaint.
However, to the extent that it necessary to rule on
the pending motions, the Court finds Plaintiff ’s claims
in the Fourth Amended Complaint against Defendant

App. 64
Khatri and the Medical Defendants should be dismissed, again, based on Plaintiff ’s failure to exhaust
his administrative remedies as required by the Prison
Litigation Reform Act. The analysis and rationale in
the previous Report and Recommendation (ECF No.
209) and the Memorandum Opinion and Order adopting the Report and Recommendation (ECF Nos. 212
and 213) are applicable and are incorporated by reference as if set forth herein. It is recommended that Defendants’ motions be granted.
2. The Motion to Dismiss filed by the DOC
Defendants
The DOC Defendants argue that the Fourth
Amended Complaint continues to violate the “short
and plain statement” rule which governs federal pleadings. It appears that Plaintiff has sued almost
every staff member he came in contact with at SCIHoutzdale and has lumped them together in bald, conclusory, rambling allegations that offer no specifics,
and few dates.
A Rule 12(b)(6) motion tests the sufficiency of the
complaint. “While a complaint attacked by a Rule
12(b)(6) motion to dismiss does not need detailed factual allegations, a plaintiff ’s obligation to provide the
grounds for his entitlement to relief requires more
than labels and conclusions, and a formulaic recitation
of the elements of a cause of action will not do. Factual
allegations must be enough to raise a right to relief
above the speculative level.” Bell Atl. Corp. v. Twombly,

App. 65
550 U.S. 544, 555 (2007) (internal quotation marks,
brackets and citations omitted).
Turning to this case, the Court begins by noting
while the complaint of a plaintiff proceeding pro se is
“held to less stringent standards than formal pleadings drafted by lawyers” and must be “liberally construed,” Erickson v. Pardus, 551 U.S. 89 (2007), nothing
in the lenience accorded a pro se filing excuses a plaintiff from complying with the threshold requirements of
the Federal Rules of Civil Procedure.
Under Fed.R.Civ.P. 8(a)(2), a complaint must include “a short and plain statement of the claim showing that the pleader is entitled to relief. . . .” The words
“short and plain” are themselves short and plain, and
they mean what they say: A complaint must be concise,
and it must be clear. Rule 8 was not promulgated to
provide helpful advice; it has the force of law, and it
must be followed.
In this case, Plaintiff has utterly failed to once
again comply with Rule 8. Plaintiff s complaint is not
“short.” It sprawls across 16 single-spaced typewritten
pages, utilizing a small font, and contains approximately 40 paragraphs, some of which are over a page
long. Nor is plaintiff ’s complaint “plain.” Plaintiff ’s factual and legal allegations are, to a substantial extent,
incomprehensible. There is still virtually no detail as
to who did what and when.
The Fourth Amended Complaint is best described
as a “kitchen sink” or “shotgun” complaint – a complaint in which a plaintiff brings every conceivable

App. 66
claim against every conceivable defendant. Such complaints are troublesome for many reasons. For one
thing, complaints like the instant one unfairly burden
defendants and courts. The plaintiff who files such a
shotgun complaint shifts onto the defendant and the
court the burden of identifying the plaintiff ’s genuine
claims and determining which of those claims might
have legal support. This is not the job of either a defendant or the Court.
It is important to note that a “kitchen-sink” or
“shotgun” complaint also harms the plaintiff who
brings it. In most cases, a genuine dispute that supports a viable legal claim underlies a plaintiff ’s complaint. But this genuine dispute becomes almost
impossible to discern when it is buried in pages of various allegations, some of which may not rise to the level
of a viable claim.
The allegations in Plaintiff ’s Fourth Amended
Complaint do not include sufficient factual information to provide the grounds on which his claims rest,
and to raise a right above a speculative level. See
Twombly, 550 U.S. at 555-56, n.3. The Complaint
clearly lacks the facial plausibility to survive a motion
to dismiss. Having determined that Plaintiff has failed,
once again, to meet the Twombly requirements to survive a motion to dismiss, the Court need not address
the DOC Defendants’ other grounds for their motion to
dismiss.

App. 67
Plaintiff has now had five opportunities to plead
his cause of action. Further amendment is not justified.
III. Conclusion
For the reasons stated above, it is respectfully recommended that the motions to dismiss filed by Defendant Khatri (ECF No. 225), the Medical Defendants
(ECF No. 228), and the DOC Defendants (ECF No. 229)
be granted.
Any party is permitted to file Objections to this
Report and Recommendation to the assigned United
States District Judge. In accordance with 28 U.S.C.
§ 636(b), Fed.R.Civ.P. 72(b)(2), and LCvR 72.D.2, Defendants’ Objections are due by June 26, 2017. Because service of this Report and Recommendation is
being made on Plaintiff via mail, his Objections are
due by June 29, 2017. The parties are cautioned that
failure to file Objections within this timeframe “will
waive the right to appeal.” Brightwell v. Lehman, 637
F.3d 187, 193 n. 7 (3d Cir. 2011).
s/ Cynthia Reed Eddy
Cynthia Reed Eddy
United States Magistrate Judge
Dated: June 12, 2017
cc: KAREEM GARRETT
14 E. Albemarle Ave. 1st Floor
Lansdowne, PA 19050
(via U.S. First Class Mail)

App. 68
Mallorie McCue
Samuel H. Foreman
Weber Gallagher Simpson Stapleton Fires
& Newby
(via ECF electronic notification)
Sean D. Callaghan
Marshall Dennehey Warner Coleman
& Goggin
(via ECF electronic notification)
Mary Lynch Friedline
Office of Attorney General
(via ECF electronic notification)
Cassidy L. Neal
Mats Baum O’Connor P.C.
(via ECF electronic notification)

App. 69
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF PENNSYLVANIA
KAREEM GARRETT,
Plaintiff,
v.
WEXFORD HEALTH,
et al.,
Defendants.

)
)
)
)
)
)
)
)

Civil Action No.
3:14-cv-00031
United States District Judge
Kim R. Gibson

MEMORANDUM OPINION
(Filed Sep. 9, 2016)
This prisoner civil rights suit was referred to a
United States Magistrate Judge for pretrial proceedings in accordance with the Magistrate Judges Act, 28
U.S.C. § 636(b)(1), and Rules 72.1.3 and 72.1.4 of the
Local Rules of Court for Magistrate Judges. Upon
Plaintiff ’s compliance with the statutory requirements, his motion to proceed in forma pauperis was
granted. (ECF No. 15). The operative complaint is the
Third Amended Complaint, ECF No. 180, which incorrectly is entitled Second Amended Complaint.
Defendant Dr. Khatri and the Medical Defendants
each filed a motion to dismiss arguing that Plaintiff
had failed to exhaust his administrative remedies.
(ECF Nos. 183 and 185). Because Defendant Khatri
and the Medical Defendants presented material outside the Third Amended Complaint, the motions to

App. 70
dismiss were converted into motions for summary
judgment on the issue of exhaustion only. The DOC Defendants filed a motion to dismiss and/or motion for
more definite statement. (ECF No. 181).
On July 14, 2016, Magistrate Judge Eddy filed a
Report and Recommendation (ECF No. 209) recommending that the motions to dismiss, which had been
converted into motions for summary judgment, filed by
Defendants Khatri and the Medical Defendants be
granted and that the DOC’s motion to dismiss and/or
for more definite statement likewise be granted. It was
recommended that Plaintiff be allowed one final opportunity to amend his claims against the DOC defendant.
The parties were advised that they had fourteen (14)
days after service of the Report and Recommendation
to file objections. To date, no party has filed any objections nor has any party sought an extension of time in
which to do so.
After de novo review of the pleadings and documents in the case, together with the Report and Recommendation, the Motions to Dismiss, which have
been converted into Motions for Summary Judgment,
filed by Defendant Khatri and the Medical Defendants
will be GRANTED and judgment will be entered in
their favor; and the Motion to Dismiss and/or Motion
for More Definite Statement filed by the DOC Defendants will be GRANTED. Plaintiff will be given an opportunity to file an amended complaint.
An appropriate order will be entered.

App. 71
BY THE COURT:
/s/ Kim R. Gibson
Kim R. Gibson
United States District Judge
Dated: September 9, 2016
cc: KAREEM GARRETT
14 E. Albemarle Ave. 1st Floor
Lansdowne, PA 19050
(via U.S. First Class Mail)
All counsel of record via ECF notification

App. 72
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF PENNSYLVANIA
KAREEM GARRETT,
Plaintiff,
v.
WEXFORD HEALTH,
et al,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action No.
3:14-cv-00031
United States District Judge
Kim R. Gibson
United States Magistrate
Judge
Cynthia Reed Eddy

REPORT AND RECOMMENDATION
(Filed Jul. 14, 2016)
I.

RECOMMENDATION

It is respectfully recommended that the motions to
dismiss filed by Defendant Khatri (ECF No. 183) and
the Medical Defendants1 (ECF No. 185), both of which
have been converted into a Motion for Summary Judgment on the issue of exhaustion, be granted. The Clerk
of Court should be directed to terminate these Defendants from this action.
By separate Text Order filed this day, Plaintiff ’s
motion in opposition to Defendants’ motion for

1

The Medical Defendants which have been served are Dr.
Muhammad Naji, Deborah Cutshall, Casey Thornley, P.A., and
Patrick Joseph Nagel, P.A.

App. 73
summary judgment (ECF No. 198) is converted to an
Opposition Brief.
It is respectfully recommended that the motion to
dismiss and/or motion for more definite statement filed
by the DOC Defendants2 (ECF No. 181) be granted in
part and denied in part and that Plaintiff be allowed
an opportunity to file an amended complaint.
II.

REPORT
A. Relevant and Material Facts

Plaintiff, Kareem Garrett, commenced this action
on February 2, 2014, while he was a prisoner in the
custody of the Pennsylvania Department of Corrections.3 The operative complaint is the Third Amended
Complaint (“TAC”), ECF No. 180, which incorrectly is
entitled Second Amended Complaint.4

2

The DOC Defendants which have been served are Debra J.
Younkin, Janet Pearson, Steven Glunt, Nurse Lori, Nurse Debbie, Nurse Rodger, Nurse John, Nurse Hanna, Superintendent K.
Cameron, Deputy Superintendent David Close, Deputy Superintendent (Security) K. Hollinbaugh, Doretta Chencharisk, Joel
Barrows, James Morris, Peggy Bauchman, Tracey Hamer, Captain Brumbaugh, Captain Miller, Lt. Shea, Lt. Horton, Lt. Lewis,
Lt. Glass, L.S. Kerns-Barr, F. Nunez, Jack Walmer, M.J. Barber,
Mr. Shetler, Ms. Cogan, Mr. Little, Sgt. James, Sgt. Young, Medical Officer London, Medical Officer Owens, and Officer Uncles.
3
Plaintiff was released on parole after the filing of this lawsuit. (ECF No. 152).
4
Plaintiff filed an Amended Complaint on March 14, 2014
(ECF No. 10). On June 3, 2014, Plaintiff filed a Second Amended
Complaint (ECF No. 24). In response to Defendants’ motions to

App. 74
Garrett was transferred from SCI-Graterford to
SCI-Houtzdale on January 9, 2014. (TAC, at ¶ 16).
Within days of arriving at SCI-Houtzdale, Garrett began filing grievances about Dr. Naji’s decisions to discontinue authorization for his use of a wheelchair and
walker, and discontinued his pain medications, muscle
relaxers, and “psych” medications. Although the TAC
contains other vague allegations, the focus of the TAC
appears to be a denial of adequate health care. Plaintiff
brings his claims under 42 U.S.C. § 1983. (TAC, at ¶ I,
01).
The DOC Defendants filed a motion to dismiss
and/or motion for more definite statement. Defendant
Dr. Khatri and the Medical Defendants each filed a motion to dismiss, arguing that the TAC should be dismissed as Plaintiff failed to exhaust his administrative
remedies and, in the alternative, that the TAC fails to
state a claim. Because Defendant Khatri and the Medical Defendants presented material outside of the TAC,
the Court converted their motions to dismiss into motions for summary judgment on the issue of exhaustion
only and allowed the parties time to submit additional
briefing and evidence. The issues now have been fully
briefed and the factual record has been thoroughly developed. (ECF Nos. 182, 184, 186, 188, 191, 192, 193,
194, 195, 196, 198, 199, 201, and 202.) The matter is
ripe for disposition.

dismiss, Plaintiff filed a Third Amended Complaint (ECF No. 180)
on February 5, 2016.

App. 75
B. Motions for Summary Judgment filed by Defendant Khatri and the Medical Defendants
The Prison Litigation Reform Act of 1995 (“PLRA”)
provides at 42 U.S.C. § 1997e(a) that:
No action shall be brought with respect to
prison conditions under section 1983 of this title, or any other Federal law, by a prisoner
confined in any jail, prison, or other correctional facility until such administrative remedies as are available are exhausted.
A prisoner must exhaust administrative remedies
as to any claim that arises in the prison setting, regardless of any limitations on the kind of relief that
may be gained through the grievance process. See Porter v. Nussle, 534 U.S. 516, 532 (2002); Booth v.
Churner, 532 U.S. 731, 741 n.6 (2001). Exhaustion
means “a prisoner must complete the administrative
review process in accordance with the applicable procedural rules, including deadlines, as a precondition to
bringing suit in federal court.” Woodford v. Ngo, 548
U.S. 81, 92 (2006). Grievance procedures in inmate
handbooks are administrative remedies that must be
exhausted under the PLRA prior to suit. Concepcion v.
Morton, 306 F.3d 1347, 1348-49 (3d Cir. 2002).
A prisoner does not have to allege in his complaint
that he has exhausted administrative remedies. Ray v.
Kertes, 285 F.3d 287, 295 (3d Cir. 2002). Failure to exhaust available administrative remedies is an affirmative defense. Id. Therefore, it must be pleaded and
proven by the defendants. Brown v. Croak, 312 F.3d

App. 76
109, 111 (3d Cir. 2002). Where the inmate has exhausted his or her administrative remedies as to some
claims in a complaint but not others, the district court
must consider the claims that were exhausted while
dismissing the claims that are unexhausted. Jones v.
Bock, 549 U.S. 199, 218-44 (2007).
Plaintiff and Defendant Khatri and the Medical
Defendants5 dispute whether Garrett was required to
exhaust his administrative remedies under the PLRA
because, although he filed his original complaint while
a prisoner at SCI-Houtzdale, he filed the TAC while he
was no longer a “prisoner” as that word is defined by
the PLRA. Helen Shambaugh, a Grievance Review Officer with the Secretary’s Office of Inmate Grievances
& Appeals (“SOIGA”) provided a sworn Declaration indicating that as of September 26, 2014, Plaintiff had
submitted twenty-one (21) grievances to SOIGA for final review and that all Final Decisions issued on Garrett’s grievances occurred after February 2, 2014, the
day he filed this action. (ECF No. 188). The earliest of
Plaintiff ’s appealed grievances did not receive a final
decision from SOIGA until April 17, 2014 – two months
after the filing of this lawsuit. Further, a number of
Plaintiff ’s claims in this lawsuit do not appear in any
of his exhausted grievances.
Plaintiff does not argue to the contrary, but
rather argues that he need not have exhausted any
5

The DOC defendants have not raised failure to exhaust as
a basis for their motion to dismiss. Because failure to exhaust is
an affirmative defense, this Court may not sua sponte assert such
a defense on behalf of the DOC defendants.

App. 77
administrative process because his TAC was filed after
he was released from custody. He is mistaken. Plaintiff ’s status as a “prisoner” is determined at the time
his complaint is “brought” or filed in court. Put another
way, a plaintiff ’s status as a prisoner for purposes of
the PLRA is judged as of the time he files his original
complaint. The exhaustion requirement will continue
to apply, even after a prisoner has been released, when
the former prisoner amends a complaint filed while he
was in prison. As the United States Court of Appeals
for the Third Circuit stated in Ahmed v. Dragovich, 297
F.3d 201, 210 (3d Cir. 2002), “[a]lthough Ahmed would
have been free of the strictures of the PLRA if he had
filed a timely complaint after his release from prison,
he is bound by the PLRA because his suit was filed on
July 29, 1988, almost three years before he was released from prison.”
Plaintiff was required and failed to exhaust his administrative remedies in accordance with the PLRA.
Accordingly, the motions for summary judgment filed
by Defendant Khatri and the Medical Defendants
should be granted.
2. The Motion to Dismiss and/or Motion for
More Definite Statement filed by the DOC
Defendants
a. Standard of Review – Motion to Dismiss
The applicable inquiry under Federal Rule of Civil
Procedure 12(b)(6) is well settled. Under Federal Rule

App. 78
of Civil Procedure 8, a complaint must contain a “short
and plain statement of the claim showing that the
pleader is entitled to relief.” Fed.R.Civ.P. 8(a)(2). Federal Rule of Civil Procedure 12(b)(6) provides that a
complaint may be dismissed for “failure to state a
claim upon which relief can be granted.” Fed.R.Civ.P.
12(b)(6). “To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)). A complaint that merely alleges entitlement to
relief, without alleging facts that show entitlement,
must be dismissed. See Fowler v. UPMC Shadyside,
578 F.3d 203, 211 (3d Cir. 2009). This “ ‘does not impose
a probability requirement at the pleading stage,’ but
instead ‘simply calls for enough facts to raise a reasonable expectation that discovery will reveal evidence of ’
the necessary elements.” Phillips v. Cnty. of Allegheny,
515 F.3d 224, 234 (3d Cir. 2008) (quoting Twombly, 550
U.S. at 556). Nevertheless, the court need not accept as
true “unsupported conclusions and unwarranted inferences,” Doug Grant, Inc. v. Greate Bay Casino Corp.,
232 F.3d 173, 183-84 (3d Cir. 2000), or the plaintiff ’s
“bald assertions” or “legal conclusions,” Morse v. Lower
Merion Sch. Dist., 132 F.3d 902, 906 (3d Cir. 1997).
When considering a Rule 12(b)(6) motion, the
court’s role is limited to determining whether a plaintiff is entitled to offer evidence in support of his
claims. See Scheuer v. Rhodes, 416 U.S. 232, 236 (1974).
The court does not consider whether a plaintiff will

App. 79
ultimately prevail. See id. A defendant bears the burden of establishing that a plaintiff ’s complaint fails to
state a claim. See Gould Elecs. v. United States, 220
F.3d 169, 178 (3d Cir. 2000).
b. Standard of Review – Motion for More
Definite Statement
Federal Rule of Civil Procedure 12(e) permits a
party to “move for a more definite statement of a pleading to which a responsive pleading is allowed but which
is so vague or ambiguous that the party cannot reasonably prepare a response.” Fed.R.Civ.P. 12(e). Rule 12(e)
is part of the “district court’s case-management arsenal,” Twombly, 550 U.S. at 593 n. 13, that, in conjunction with the rest of Rule 12 and Rule 8, serves “to
frame and govern [the] court’s assessment of the quality of a pleading.” Sony BMG Music Entm’t v. Cloud,
No. 08-1200, 2008 WL 3895895, at *2 (E.D.Pa. Aug. 22,
2008). Generally speaking, “Rule 12(e) motions are disfavored in light of the liberal pleading standards established by Fed.R.Civ.P. 8(a).” Transport Intl Pool, Inc. v.
Ross Stores, Inc., No. 06-1812, 2009 WL 1033601, at *2
(E.D.Pa. Apr.15, 2009); see also Country Classics at Hill
Homeowners’ Ass’n v. Country Classics at Morgan Hill,
LLC, 780 F.Supp.2d 367, 371 (E.D.Pa. 2011) (“[M]otions
for a more definite statement are ‘highly disfavored.’ ”).
Courts will grant a Rule 12(e) motion only “if a pleading is so vague or ambiguous that the opposing party
cannot reasonably be required to make a responsive
pleading.” Country Classics, 780 F.Supp.3d at 371 (internal quotations omitted).

App. 80
c. Discussion
The DOC Defendants have filed a motion to dismiss and/or motion for more definite statement. In
their brief in support thereof, the DOC Defendants argue that the TAC fails to comply with Rule 86 and the
minimum requirements of Twombly. The DOC Defendants additionally argue that
Plaintiff has sued almost every staff member
he came in contact with at SCI-Houtzdale
(probably 1/5 of that facility’s employment),
lumping them together in bald, conclusory,
rambling allegations that rarely offer any specifics, let alone dates. At this point, it would be
virtually impossible for defendants to file an
answer to this document. At the same time,
this type of pleading renders it virtually impossible to file a motion to dismiss (which
could result in a strike) given the unintelligible nature of the allegations.
Br. at 6 (ECF No. 182). Alternatively, Defendants move
for a more definite statement pursuant to Federal Rule
of Civil Procedure 12(e) which would allow Plaintiff
“one final chance to offer a ‘short and plain statement’
of his claims in compliance with Rule 8, or face dismissal with prejudice.” Id.
The TAC is thirty-six typewritten pages containing over 90 paragraphs, yet there is virtually no detail
as to who did what and the dates of when the violations
6

Rule 8 Federal Rules of Civil Procedure requires, inter alia,
“a short and plain statement of the claim.”

App. 81
allegedly occurred. Throughout the TAC, Plaintiff
makes general and conclusory claims against the DOC
Defendants with no support or specifics, i.e., “deplorable living conditions,” denial of “basic human necessities,” deprivation of food, retaliation, harassment,
complaints pertaining to his medical treatment, or lack
thereof. In Paragraph 79, Plaintiff states that he has
established a claim for relief under Title II of the Americans With Disabilities Act; although he also explicitly
states that this lawsuit has been brought only under
42 U.S.C. § 1983. Further, there are numerous paragraphs devoted to injunctive relief, all which are now
moot as Plaintiff is no longer incarcerated.
To complicate matters even further, the TAC references over 60 DOC Defendants (TAC, ¶¶ 03, 28), yet
only 37 DOC Defendants have been served as Plaintiff
has not provided service forms for these additional individuals. Additionally, the TAC contains references to
Plaintiff ’s prior complaints and asserts “complaints
supplemental to” his original complaint.
The Court agrees with the DOC defendants that
given the vague and ambiguous allegations of the TAC,
the DOC Defendants cannot reasonably be required to
properly respond to Plaintiff ’s allegations. Therefore,
the Court recommends that the DOC Defendants’ motion for more definite statement be granted and that
Plaintiff be given one final opportunity to amend his
complaint. Plaintiff should be ordered to file a single
operative complaint consisting of a short and plain
statement of his claims as required by Rule 8. The
amended complaint must include all defendants and

App. 82
all causes of action and must set forth clearly identified
causes of action that both identify Plaintiff ’s legal theories and facts suggestive of the proscribed conduct alleged in one stand-alone document without reference
to any other document filed in this case The amended
complaint must also state the dates on which the conduct of each defendant allegedly took place. See Fed. R.
Civ. P. 8.
Plaintiff is cautioned that the opportunity to file
an amended complaint is not an invitation to enlarge
the lawsuit by filing new allegations not related to the
allegations in the original complaint or by adding defendants not related to the allegations in the original
complaint. Inclusion of new allegations and claims unrelated to those set forth in the original complaint will
be considered a failure to comply with an Order of
Court and will result in the dismissal of the amended
complaint.
Plaintiff should also be reminded that all claims
pertaining to the denial of medical care and related
medical services have been dismissed for failure to exhaust. Further, Plaintiff is cautioned that his claims
against the DOC Defendants may be subject to dismissal for failure to exhaust if he failed to exhaust those
claims prior to bringing this lawsuit.
III. Conclusion
For the reasons stated above, it is respectfully recommended that the Motion to Dismiss filed by Defendant Dr. Khatri and the Medical Defendants (ECF Nos.

App. 83
183 and 185), which have been converted into Motions
for Summary Judgment on the exhaustion issue, be
granted on the ground that Plaintiff did not properly
exhaust his administrative remedies pursuant to the
PLRA with respect to these defendants. It is also recommended that the DOC Defendants’ Motion for More
Definite Statement be granted and Plaintiff be allowed
one final opportunity to amend his claims against the
DOC Defendants.
In accordance with the Magistrate Judges Act, 28
U.S.C. § 636(b)(1)(B) and (C), and Rule 72(D)(2) of the
Local Rules for Magistrates Judges, the parties are allowed fourteen (14) days after service of this Report
and Recommendation, to file Objections to this Report
And Recommendation. Any party opposing the objections shall have fourteen (14) days after date of service
to respond to the objections. Failure to file Objections
will waive the right to appeal. Brightwell v. Lehman,
637 F.3d 187, 193 n.7 (3d Cir. 2011).
s/ Cynthia Reed Eddy
Cynthia Reed Eddy
United States Magistrate Judge
Dated: July 14, 2016
cc: KAREEM GARRETT
14 E. Albemarle Ave. 1st Floor
Lansdowne, PA 19050
(via U.S. First Class Mail)

App. 84
Mallorie McCue
Samuel H. Foreman
Weber Gallagher Simpson Stapleton
Fires & Newby
(via ECF electronic notification)
Sean D. Callaghan
Marshall Dennehey Warner Coleman
& Goggin
(via ECF electronic notification)
Mary Lynch Friedline
Yana L. Warshafsky
(via ECF electronic notification)
Cassidy L. Neal
Mats Baum O’Connor P.C.
(via ECF electronic notification)

